<html>
<title> - WILDLAND FIRE IMPACTS IN 2003 AND WILDFIRE PREPAREDNESS IN 2004</title>
<body><pre>[Senate Hearing 108-568]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-568

    WILDLAND FIRE IMPACTS IN 2003 AND WILDFIRE PREPAREDNESS IN 2004

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   to

 GAIN AN UNDERSTANDING OF THE IMPACT AND COST OF LAST YEAR'S FIRES AND 
 THEN LOOK FORWARD TO THE POTENTIAL 2004 FIRE SEASON. THE HEARING WILL 
GIVE ALL COMMITTEE MEMBERS A SOLID UNDERSTANDING OF THE PROBLEMS FACED 
LAST YEAR AND WHAT PROBLEMS THE AGENCIES AND THE LAND THEY OVERSEE MAY 
FACE THIS NEXT SEASON, INCLUDING AERIAL FIRE FIGHTING ASSETS AND CREW, 
                       AND OVERHEAD AVAILABILITY

                               __________

                              MAY 11, 2004


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
95-342                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington
                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                Frank Gladics, Professional Staff Member
                    Scott Miller, Democratic Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     5
Bunning, Hon. Jim, U.S. Senator from Kentucky....................    24
Cantwell, Hon. Maria, U.S. Senator from Washington...............     2
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     1
Rey, Mark, Under Secretary for Natural Resources and Environment, 
  Department of Agriculture......................................     8
Scarlett, P. Lynn, Assistant Secretary, Policy, Management and 
  Budget, Department of the Interior.............................     6
Wyden, Hon. Ron, U.S. Senator from Oregon........................     5

                                APPENDIX

Responses to additional questions................................    33

 
    WILDLAND FIRE IMPACTS IN 2003 AND WILDFIRE PREPAREDNESS IN 2004

                              ----------                              


                         TUESDAY, MAY 11, 2004

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:08 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Pete 
Domenici, chairman, presiding.

OPENING STATEMENT OF HON. PETE DOMENICI, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. The hearing will come to order. First of all, 
let me apologize for being late. And good morning. It's my 
pleasure to welcome the Assistant Secretary of Policy 
Management and Budget for the Department of the Interior, Lynn 
Scarlett, and Under Secretary for Natural Resources for the 
Department of Agriculture, Mark Rey.
    We are here today to review the 2003 fire season and the 
impact of those fires on the environment and to examine 
preparedness for the 2004 fire season. Along with learning what 
fire conditions we can expect this year, I think we're all 
interested in learning more about three areas. One, we want to 
better understand how it is, in a year when we had only 63,000 
fires, the smallest number of fires in a year since 1922, and 
only burned 3.9 million acres--I shouldn't say only, but I 
guess that's relatively speaking--about a million acres less 
than a 10-year average, that the Agency managed to expend $1.2 
billion on fire suppression. I want to know how the agencies 
are going to react to the recent National Transportation Safety 
Board finding on heavy slurry bombers and what that means for 
this year's fire fighting efforts and what it means for the 
long-term. I understand some of the Senators who are here are 
particularly interested in that.
    I see that over 50 percent of your Healthy Forest 
Restoration Act work this year will be accomplished through 
prescribed burns, most of which will occur in the Southeast 
United States and less than 20 percent will be accomplished 
through Healthy Forest Restoration projects that mechanically 
remove fuels. I want to be assured that this ratio will be 
reversed in 2005.
    We want to ask the witnesses to summarize their statements. 
Due to the importance of this hearing I've allotted each 
witness 15 minutes to testify. I ask each of you to respect 
that time limit. Each member will then be recognized for 
purposes of statements and/or questions for five minutes each. 
I hope this will allow all members an opportunity for dialogue 
with the witnesses.
    Senator Bingaman.
    [The prepared statement of Senator Cantwell follows:]
Prepared Statement of Hon. Maria Cantwell, U.S. Senator From Washington
    Mr. Chairman, thank you for holding this important hearing today on 
the outlook for the 2004 fire season. We in Washington state are very 
concerned about what appears to be yet another year of devastating 
drought throughout the West, and the hazards this could pose in terms 
of increased fire risk and threats to public safety.
    As always, I believe there are two fundamental principles that 
should guide our efforts here. First, we need to ensure adequate 
resources for firefighting activities. We must make sure that we do not 
put federal agencies in the position where they must borrow from other 
accounts to pay emergency costs. Forcing these agencies on an annual 
basis to engage in Enron-style accounting practices to pay for 
firefighting only continues the vicious cycle in which they are unable 
to complete the work that will help maintain the health of our public 
lands, while simultaneously detracting from these agencies many, multi-
faceted and important missions.
    Second, we need to focus these resources on the Wildland Urban 
Interface. That is, we should be focusing federal money and efforts on 
the areas that pose the most immediate danger to our nation's rural 
communities. I believe that's simply a matter of common-sense.
    However, Mr. Chairman, I want to focus the majority of my comments 
today on yet another topic which I hope my colleagues will pay close 
attention to as the 2004 fire season approaches. That's the issue of 
wildland firefighter safety. Many of my colleagues on this Committee 
are from the West and are probably aware of the fact that every summer, 
we send thousands of our constituents--many of them brave young men and 
women, college students on summer break into harm's way to protect our 
nation's rural communities and public lands. These men and women serve 
our nation bravely. Since 1910, more than 900 wildland firefighters 
have lost their lives in the line of duty. According to the U.S. Forest 
Service, a total of 30 firefighters across this nation perished in the 
line of duty last year.
    These firefighters represented a mix of federal and state 
employees, volunteers and independent contractors. And they lost their 
lives for an array of reasons. We all realize that fighting fires on 
our nation's public lands is an inherently dangerous business. But what 
we cannot and must not abide are the preventable deaths losing 
firefighters because rules were broken, policies ignored and no one was 
held accountable.
    A number of my colleagues will recall that, in 2001, this issue was 
pushed to the fore in the State of Washington, because of a horrible 
tragedy. On July 10, 2001, near Winthrop in Okanogan County, in the 
midst of the second worst drought in the history of our state, the 
Thirtymile fire burned out of control.
    Four courageous young firefighters were killed. Their names:

  <bullet> Tom Craven, 30 years old;
  <bullet> Karen FitzPatrick, 18;
  <bullet> Jessica Johnson, 19;
  <bullet> and Devin Weaver, 21.

    Sadly, as subsequent investigations revealed, these young men and 
women did not have to die. In the words of the Forest Service's own 
report on the Thirtymile fire, the tragedy ``could have been 
prevented.'' At that time, I said that I believe we in Congress and 
management within the firefighting agencies have a responsibility to 
ensure that no preventable tragedy like Thirtymile fire ever happened 
again.
    I'd like to thank my colleague Senator Bingaman, the distinguished 
Ranking Member of the Senate Energy Committee, as well as Senator 
Wyden, who was then chair of the Subcommittee on Public Lands and 
Forests. In the wake of the Thirtymile Fire, they agreed to convene 
hearings on precisely what went wrong that tragic day. We heard from 
the grief-stricken families.
    In particular, the powerful testimony of Ken Weaver--the father of 
one of the lost firefighters--put into focus precisely what's at stake 
when we send these men and women into harm's way.
    Mr. Chairman, I can think of no worse tragedy that a parent to 
confronting the loss of a child, especially when that loss could have 
been prevented by better practices on the part of federal agencies.
    At the Senate Energy Committee hearing, we also discussed with 
experts and the Forest Service itself, ways in which we could improve 
the agency's safety performance. And almost a year to the day after 
those young people lost their lives, we passed a bill--ensuring an 
independent review of tragic incidents such as Thirtymile that lead to 
unnecessary fatalities.
    Based on subsequent briefings by the Forest Service, revisions to 
the agency's training and safety protocols, and what I've heard when I 
have visited with firefighters over the past two years, I do believe 
the courage of the Thirtymile families to stand up and demand change 
has had a positive impact on the safety of the young men and women who 
are preparing to battle blazes as wildland firefighters.
    Yet, I'm deeply saddened by the fact that it's clear we haven't 
done nearly enough. In July 2003--two years after Thirtymile--two more 
firefighters perished, this time at the Cramer Fire within Idaho's 
Salmon-Challis National Forest. Jeff Allen and Shane Heath were killed 
when the fire burned over an area where they were attempting to 
construct a landing spot for firefighting helicopters. Certainly some 
28 others lost their lives fighting wildfires last year, and we must 
recognize the sacrifice and grief befalling their families.
    After the Thirtymile Fire, however, I told the Weavers and the 
Cravens, the families of Karen FitzPatrick and Jessica Johnson that I 
believed we owed it to their children to identify the causes and learn 
from the mistakes that were made in the Okanogan, to make wildland 
firefighting safer for those who would follow. That is why the findings 
associated with the Cramer Fire simply boggle my mind.
    We learned at Thirtymile that all ten of the agencies' Standing 
Fire Orders and many of the 18 Watch Out Situations--the most basic 
safety rules--were violated or disregarded. The same thing happened at 
Cramer, where Heath and Allen lost their lives two years later.
    After the Thirtymile Fire, the Occupational Safety and Health 
Administration (OSHA) conducted an investigation and levied against the 
Forest Service five citations for Serious and Willful violations of 
safety rules. It was eerie, then, when just this March OSHA concluded 
its investigation of Cramer. The result: another five OSHA citations, 
for Serious, Willful and Repeat violations. Reading through the list of 
causal and contributing factors for Cramer and putting them next to 
those associated with the Thirtymile fire, my colleagues would be 
struck by the many disturbing similarities. Even more haunting are the 
parallels between these lists and the factors cited in the 
investigation of 1994's South Canyon Fire on Storm King Mountain in 
Colorado. It's been 10 years since those 14 firefighters lost their 
lives on Storm King Mountain--and yet, the same mistakes are being made 
over and over again.
    Mr. Chairman, I don't believe that's acceptable. The firefighters 
we send into harm's way this year-and the ones we've already lost 
deserve better.
    Training, leadership and management problems have been cited in all 
of the incidents I've discussed. Frankly, I have believed since the 
Thirtymile tragedy that the Forest Service has on its hands a cultural 
problem. What can we do, from the legislative branch, to provide this 
agency with enough motivation to change? I believe the first step we 
can take is to equip ourselves with improved oversight tools, so these 
agencies know that Congress is paying attention. Today I'm introducing 
legislation--the Wildland Firefighter Safety Act of 2004--that would do 
just that.
    I believe this is a modest yet important proposal. It was already 
passed once by the Senate, as an amendment to last year's Healthy 
Forests legislation. However, I was disappointed that it was not 
included in the conference version of the bill.
    But it is absolutely clear to me--particularly in light of OSHA's 
review of the Cramer Fire--that these provisions are needed now more 
than ever.
    First, the Wildland Firefighter Safety Act of 2004 will require the 
Secretaries of Agriculture and Interior to track the funds the agencies 
expend for firefighter safety and training.
    Today, these sums are lumped into the agencies' ``wildfire 
preparedness'' account. But as I have discussed with various officials 
in hearings before the Senate Energy and Natural Resources Committee, 
it is difficult for Congress to play its rightful oversight role--
ensuring that these programs are funded in times of wildfire emergency, 
and measuring the agencies' commitment to these programs over time--
without a separate break-down of these funds.
    Second, it will require the Secretaries to report to Congress 
annually on the implementation and effectiveness of its safety and 
training programs.
    Mr. Chairman, I assure my colleagues who have not spent time 
dwelling on this issue, that the maze of policy statements, management 
directives and curricula changes associated with federal firefighter 
training is dizzying and complicated.
    The agencies have a responsibility to continually revise their 
policies in the face of new science and lessons learned on the fire 
line. Meanwhile, Congress has the responsibility to ensure needed 
reforms are implemented. As such, I believe that Congress and the 
agencies alike would benefit from an annual check-in on these programs. 
I would also hope that this would serve as a vehicle for an ongoing and 
healthy dialogue between the Senate and agencies on these issues.
    Third, my bill would stipulate that federal contracts with private 
firefighting crews require training consistent with the training of 
federal wildland firefighters. It would also direct those agencies to 
monitor compliance with this requirement. This is important not just 
for the private contractor employees' themselves--but for the federal, 
state and tribal employees who stand shoulder-to-shoulder with them on 
the fire line.
    Mr. Chairman, this is actually quite a complex issue about which 
many of us are just beginning to learn. With the severity of fire 
seasons throughout the country over the past two years--and 
notwithstanding the Clinton Administration's efforts to hire a 
significant number of new firefighters as part of the National Fire 
Plan--the number of private contract crews hired by the agencies to 
help with fire suppression has tripled since 1998. According to Oregon 
Department of Forestry estimates, the number of contract crews at work 
has grown from 88 in 1998 to 300 this year--with 95 percent based in 
the Pacific Northwest.
    In general, these contract crews have grown up in former timber 
communities and provide important jobs especially given the fact the 
agencies themselves do not at this juncture have the resources to fight 
the fires entirely on their own.
    And many of these contractors have been in operation for a decade 
or more and boast stellar safety records.
    Nevertheless, as the number of--and need for--contractors has 
grown, there are more and more tales of unscrupulous employers that 
take advantage of workers and skirt training and safety requirements. 
This is a growing concern for U.S. Forest Service employees and state 
officials. This summer, the Seattle Times wrote a detailed feature on 
the issue, quoting internal Forest Service memos as well as evidence 
from the field.
    Among the contractor practices cited in the article:

  <bullet> Breaking safety rules and failing to warn other crews on the 
        fire line;
  <bullet> Falsifying or forging firefighting credentials and ignoring 
        training requirements;
  <bullet> Hiring illegal immigrants that cannot understand fire line 
        commands--and committing various labor abuses;
  <bullet> And rotating a single crew from fire to fire for 50 straight 
        days--while federal firefighters are not allowed to work more 
        than 14 or 21 days in a row.

    The article quoted from a November 2002 memo written by Joseph 
Ferguson, a deputy incident commander for the Forest Service: ``If we 
don't improve the quality and accountability of this program, we are 
going to kill a bunch of firefighters . . . Although there were two or 
three good to excellent crews on each fire, that was offset by 20 to 30 
that were hardly worth having,'' Ferguson added. ``It was apparent that 
training for most of these crews had been done poorly or not at all.''
    Paul Broyles, who heads a safety committee for the National 
Interagency Fire Center added that private crews he has seen have 
varied from ``fantastic to a he[ck] of a lot less than good and some 
were real safety concerns.'' He noted that while state government and 
feds were trying to crack down on violations associated with 
documentation, ``the assumption is, where there's one problem, there's 
probably more.''
    The Wildland Firefighter Safety Act of 2004 is a modest beginning 
in addressing the challenges posed by integrating private and federal 
contract crews--and doing it in a manner that maximizes everyone's 
safety on the fire line.
    I understand that the federal and state agencies are already 
attempting to push contractors in this direction--and this provision 
will bolster that momentum.
    And so, Mr. Chairman, I hope my colleagues on this Committee will 
support this simple legislation. Ultimately, the safety of our federal 
firefighters is a critical component of how well prepared our agencies 
are to deal with the threat of catastrophic wildfire.
    Congress owes it to the families of those brave firefighters we 
send into harm's way to provide oversight of these safety and training 
programs.
    We owe it to our federal wildland firefighters, their families and 
their state partners--and to future wildland firefighters.
    My bill will provide this body with the additional tools it needs 
to do the job. I thank the Chairman, and look forward to the testimony 
of today's witnesses.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    Senator Bingaman. Thank you very much, Mr. Chairman, for 
having the hearing. Obviously it's a very important issue to 
all of us, particularly those of us from States that are 
reflected on this map as expecting enormous problems with fire 
again this year. I wanted to just highlight a couple of issues. 
I'm afraid that we'll be facing widespread borrowing again from 
important programs at the Forest Service and the Department of 
the Interior in order to pay for fire suppression costs. This 
is something we've seen each year for many years now. The 
agencies have borrowed nearly $3 billion since 1999 from 
various accounts, and it's my opinion that that borrowing 
results in poor management of public lands and soured relations 
with the public in these States that we represent. Senator 
Nickles deserves credit for his leadership on the Budget 
Committee in that he made provision there, as I understand it, 
for a little more agile response in Congress. I think it was 
$500 million that he set aside in the budget effort. Now, that 
may or may not ever be enacted, as you're well aware.
    The other, I guess, the issue that's at the bottom of this 
is the question of whether or not we are getting realistic 
budget submissions from the Administration. We're in a period 
of long-term drought in the West; it doesn't seem as though the 
budget submissions reflect that. I think we need to have more 
accurate and realistic budgets for fire suppression.
    The second issue that I wanted to ask a few questions about 
when we get through with the statements relates to the whole 
issue of natural fires and the extent to which we have policies 
in place to accomplish what needs to be accomplished by 
managing naturally ignited fires. I think there's an awful lot 
that we are spending on prescribed fires; there's a lot we're 
spending on putting out fires; there's a lot we're spending on 
mechanical treatment of different areas to reduce fuel loads. I 
really wonder, though, if we've given enough attention to the 
usefulness of managing natural fires for resource benefits. So 
I'll ask questions about that when the time is appropriate.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much. Well, I was going to 
proceed, as I indicated, with the witnesses having 15 minutes 
each. But I have a personal request from Senator Wyden.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden. Just very briefly, Mr. Chairman, for 
unanimous consent request and then I'll put everything off for 
the questions. I'd just like to put into the record at this 
point the section of the Healthy Forest Restoration Act that 
stipulates that $760 million would be spent in each fiscal year 
to carry out the Hazardous Fuels Reduction Program. And then an 
article from the Ben Bulletin of a few days ago quoting the 
Forest Service saying that only $417 million would be spent in 
the upcoming year for hazardous fuels reduction projects.* I 
authored the amendment in the Budget Committee to increase the 
funds; it was accepted unanimously. I'll have some questions 
about that but I would like to put into the record those two 
documents which highlight in this budget, according to the 
Forest Service, that there is a shortfall of more than $300 
million in terms of what we did on a bipartisan basis with your 
support, Mr. Chairman. Thank you.
---------------------------------------------------------------------------
    * The items submitted by Senator Wyden have been retained in 
committee files.
---------------------------------------------------------------------------
    The Chairman. Thank you. We're going to proceed. Who wants 
to go first?

  OPENING STATEMENT OF P. LYNN SCARLETT, ASSISTANT SECRETARY, 
   POLICY, MANAGEMENT AND BUDGET, DEPARTMENT OF THE INTERIOR

    Ms. Scarlett. Mr. Chairman, I will begin then. Thank you.
    Mr. Chairman and members of the committee, thank you for 
this opportunity to discuss our preparations for the 2004 fire 
season and our long-term efforts to restore fire-adapted 
ecosystems and protect communities. Mark Rey will discuss the 
fire season outlook; I will focus on our wildland fire and 
forest restoration management efforts and preparedness.
    The effects of catastrophic wildfires and the efforts to 
reduce hazardous fuels in forests and our rangelands across the 
Nation, as we all know, continue to be at the forefront of 
local and national interest. Nationwide, the 2003 fire season 
had 63,000 fires that burned over four million acres. Of this 
total, 18,000 fires burned 2.6 million acres on Federal lands. 
Ninety-eight percent of all fires scheduled for suppression 
were stopped during initial attack. In 2003, while the number 
of acres burned nationally was below the 10-year average, 
California suffered its worst wild land fire season in modern 
history. Over 3,600 homes were lost and 24 people died, 
including one fire fighter.
    Nationwide, the build up of fuel and other factors such as 
long-term drought have led to increasing concerns about the 
overall condition of our forests and rangelands. The 
President's Healthy Forests Initiative and the bipartisan 
Healthy Forest Restoration Act are helping us more effectively 
implement fuels reduction projects, thereby reducing risks to 
communities and improving the environment. In 2003, the Forest 
Service and the Department of the Interior together treated 2.7 
million acres for hazardous fuels. About 1.6 million of those 
acres, or nearly 60 percent, were treated in the wildland-urban 
interface. Of the total acres, over 450 thousand acres received 
mechanical treatments. This fiscal year, the Department of the 
Interior and the Forest Service jointly plan to treat an 
additional 2.7 million acres of hazardous fuels. These 
treatments are making a difference. For example, two 
treatments, one a prescribed burn and the other a mechanical 
treatment, each significantly altered the behavior of 
Colorado's Hayman Fire in 2002. The prescribed burn mitigated 
the spread of the Hayman Fire even though the fire approached 
the treated area, driven by winds exceeding 30 miles per hour. 
In California, when the Cone Fire reached an area where trees 
had been thinned and surface fuels had been treated, the fire 
dropped from a crown fire to an easily controlled surface fire 
in a matter of a few feet.
    Through the use of stewardship contracting authority 
provided to us by the Congress, we are enhancing our ability to 
undertake fuels reduction projects while generating economic 
benefit for communities. This year the Bureau of Land 
Management has planned 35 projects using stewardship 
contracting; another 80 projects are proposed for 2005.
    Mr. Chairman and members of the committee, our management 
of forest and rangelands to reduce the risk of catastrophic 
fires present significant challenges. These challenges do 
require close cooperation among Federal agencies, cooperation 
with communities, and careful management of fire fighting 
resources. Addressing these challenges, the Secretaries of 
Agriculture and the Interior established the Wildland Fire 
Leadership Council to coordinate wildland fire management 
polices under the 10-year implementation plan and to monitor 
its accomplishment. The Council includes State and local 
governments, as well as tribal representatives dedicated to 
achieving consistent implementation of goals, actions and 
policies of the National Fire Plan and the Federal Wildland 
Fire Management Policy. In its first year of adoption or 
operation, the Council adopted field guidance to establish 
compatible, broad, national standards for identifying 
communities at risk. The Council approved a policy for 
emergency stabilization and rehabilitation of burned areas that 
ensures interagency consistency in the timing and funding of 
treatments and monitoring. And the Council adopted a common 
budget structure for wildland fire management appropriations to 
better enable us to review accountability.
    In addition to agency cooperation through the Wildland Fire 
Leadership Council, we are enhancing cooperation with private 
land owners and the local fire fighting community. We have, for 
the first time ever, signed a cooperative agreement with the 
International Association of Fire Chiefs to work with them on 
training and other common practices. We are providing help to 
homeowners through grant assistance to Firewise programs, 
through which communities and land owners undertake fuels 
reductions.
    As you are well aware, restoring forest and rangeland 
health, and suppressing wildland fires, are major undertakings. 
In 2003, the Forest Service expended just over $1 billion to 
suppress wildland fires. The Department of the Interior 
suppression costs came to over $300 million. Federal wildfire 
suppression costs for fiscal year 2003 were 50 percent above 
the average costs over the last ten years, as major fires 
burned in wildland-urban interface areas and in locations with 
extremely heavy fuel loads, both factors that contribute to 
high costs in suppression. Through preparedness and better pre-
positioning of resources, I'm pleased to say that initial 
attack success is around 98 percent.
    With the high costs of fire fighting, both agencies are 
carefully monitoring costs. Last year we undertook large fire 
cost reviews, which began in 2003 and will continue in 2004. 
These reviews provide wildland fire management leaders with 
detailed, on the ground information with which to make more 
cost efficient resource decisions while still focusing on 
firefighter safety and community protection. The Wildland Fire 
Leadership Council has also responded to key findings from 
these reviews, including strengthening business oversight and 
financial management on fire incident command teams, also 
developing incident cost share agreement guidelines so 
agreements can be in place prior to the start of the local fire 
season, and improving the use of electronic acquisition 
systems, and finally resolving problems with the wildland fire 
situation analysis process to improve timeliness and 
practicality for field use.
    In addition, this year the Wildland Fire Leadership Council 
also convened a high level panel comprising senior Federal, 
State, tribal and local representatives and incident team 
members to look at the relationship of fire management and land 
management decisions and their bearing on fire suppression 
costs. The panel is expected to present recommendations to the 
Wildland Fire Leadership Council over the next several months 
on cost controls, and give us a better understanding of what is 
driving the costs that we are experiencing.
    I will underscore that the safety of firefighters and of 
communities is our first priority. I know you are all aware of 
the recent National Transportation Safety Board report on air 
tankers used in firefighting. Mark Rey will report on our 
anticipated actions in response to this report.
    We look forward to working with you in implementing the 
Agency's programs and would be happy to answer any questions 
you might have.
    The Chairman. Thank you very much, Ms. Scarlett. Let's go 
with Mr. Rey, please.

  OPENING STATEMENT OF MARK REY, UNDER SECRETARY FOR NATURAL 
      RESOURCES AND ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Mr. Rey. Thank you, Mr. Chairman. I'm going to talk a 
little bit about the fire season that we see ahead of us and 
then also go into some detail for you about the decision we 
reached yesterday regarding the large, fixed wing air tankers.
    While the fire season nationally is expected to be near 
normal in terms of the expected number of fires and acres, much 
of the interior west and southwest Alaska is expected to have 
the potential for an above normal fire season for the following 
reasons.
    First, the combination of continuing drought and an 
increase of drought-stressed and insect-damaged trees and 
brush, has resulted in a greater potential for large wildfires 
in the west. A very warm March has also led to a significant 
reduction in Western snow packs and the snow pack in southwest 
Alaska has been below normal. Late March and early April storms 
in the southwest, particularly in New Mexico, have delayed the 
onset of the fire season so far. However, the Southwest is 
expecting a rapid escalation to critical fire potential in 
Arizona and western New Mexico later this month and during 
June. June will also be an important month in determining the 
fire severity in the Northwest and the northern Rockies. A hot, 
dry June combined with the current low snow pack would likely 
result in severe fire seasons for both of those areas. While 
dryness in the Southeast is expected to continue into the early 
summer, periodic rainfall will keep the overall fire potential 
near normal for most of the area.
    With the map that we have displayed there you can see our 
projections to date for what parts of the country should 
experience either above normal or below normal fire seasons. 
The green is below normal, the light red is above normal, and 
as you can see, many of the Western States are implicated in 
above normal fire situation for the balance of this year.
    Now let me talk a little bit about the decision yesterday. 
Effective yesterday, the Forest Service and the Department of 
the Interior have agreed to forgo the use of large, fixed wing 
contracted air tankers for fire suppression for the remainder 
of the 2004 fire season as we evaluate the long-term options 
for our aviation resources. In doing so, the Departments will 
terminate the national 2004 air tanker contract. This decision 
comes in response to recommendations contained in the April 23, 
2004, National Transportation Safety Board report on three 
previous air tanker accidents. The NTSB report stated that, 
quote, ``It is apparent that no effective mechanism currently 
exists to ensure the continuing air worthiness of these 
firefighting aircraft.'' The report also concluded that the 
Forest Service and the Department of the Interior were 
responsible for ensuring the safety of firefighting aircraft.
    To continue to use these contract large air tankers when no 
mechanism exists to ensure their air worthiness, presents an 
unacceptable level of risk to aviators, the firefighters on the 
ground and the communities we serve. Large air tankers are but 
one of many tools that we use to suppress wildland fires. 
During any year thousands of wildland fires are suppressed 
without the benefit of air support. We are in the process of 
completing a strategy for the 2004 fire season to supplement 
our wildland fire fighting efforts with other available 
aircraft. These additional aircraft assets will include the use 
of large helicopters and helitankers, smaller helicopters, 
single-engine air tankers and the military's C-130 aircraft 
equipped with the Modular Airborne Firefighting System, or the 
MAF System, as we call it. By week's end we should have put in 
place a strategy to backfill to make up for the assets that 
we've grounded as a result of yesterday's decision.
    Yesterday's decision was made with considerable sadness and 
regret inasmuch as these tankers and their pilots have served 
long and well in our fire fighting effort. But looking at the 
NTSB report, there simply did not appear to us to be any other 
available options. We are confident that with the supplemental 
aircraft that we will be securing to replace the 33 air tankers 
that we grounded our fire fighting efforts will continue in 
2004 unabated.
    And we'd both be happy to respond to any questions that you 
have.
    [The joint statement of Mr. Rey and Ms. Scarlett follows:]

 Prepared Statement of Mark Rey, Under Secretary for Natural Resources 
   and Environment, Department of Agriculture, and P. Lynn Scarlett, 
 Assistant Secretary for Policy, Management and Budget, Department of 
                              the Interior

                              INTRODUCTION

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to meet with you today. Since the Department of the 
Interior and the Department of Agriculture work closely together in 
fire management and in implementing the National Fire Plan, it is 
appropriate to use one statement to inform you on preparations for the 
2004 fire season and our long term efforts to restore fire adapted 
ecosystems.
    For much of the twentieth century, wildland fires were generally 
thought to be bad for the environment, for timber resources, and for 
communities that were impacted. As a consequence, fires were suppressed 
as soon as possible. The resulting lack of fire had an unintended 
consequence across large areas of the landscape where fire had been a 
frequent phenomenon. Over time, the amount and structure of shrubs and 
trees increased. This build up of fuel, coupled with other factors such 
as long term drought, has led to increasing concerns about the overall 
wildland condition and particularly the health of our forests and 
rangelands.
    The President's Healthy Forests Initiative (HFI) helped us tackle 
our gridlock of process that was impeding our restoration of fire 
adapted ecosystems, including treatment of hazardous fuels. HFI 
resulted in the development of a number of administrative tools and 
included a request for congressional help to further reduce procedural 
barriers. On December 3, 2003, the President signed into law the 
Healthy Forests Restoration Act of 2003 (HFRA), giving Federal agencies 
additional tools needed to implement the 10-Year Comprehensive Strategy 
and Implementation Plan. Its passage sent a strong message of 
bipartisan support for reducing fuels and restoring forest health, 
especially in the wildland-urban interface.
    The 2004 fire season is shaping up to be another challenging year. 
While most of the nation is anticipated to be near normal in terms of 
the expected number of fires and acres burned, portions of some states 
in the interior West is expected to have the potential for an above 
normal wildland fire season.
    The potential for build up of fuels, recognition that long-term 
drought persists over much of the interior West, and an increase of 
drought-stressed and insect-damaged trees and brush have resulted in a 
greater potential for large wildfires in the West. Last week's fires in 
Southern California resulted from stifling heat and an abundance of dry 
brush. Although last year's fall wildfires in Southern California 
charred more than 740,000 acres, they consumed only 7% of the dying 
trees and dry chaparral lands that surround the local communities.

                        2003 FIRE SEASON REVIEW

    The effects of catastrophic wildfires and the efforts to reduce 
hazardous fuels in forests and on grasslands across this country have 
been at the forefront of local and national interest. Nationwide, the 
2003 fire season had 63,000 fires which burned more than 4 million 
acres. Of this amount, 18,000 fires burned 2.6 million acres on Federal 
lands. Ninety-eight percent of all fires on Federal lands were stopped 
during initial attack.
    In 2003, while the number of acres burned nationally was below the 
10-year average, California suffered its worst wildland fire season in 
modern history. Over 3,600 homes were lost, and 24 people died, 
including one firefighter. The State and Federal agencies spent $157 
million to contain the fires. Sixteen people died in the floods and 
debris flows that followed as a result of the fires. A large portion of 
the damage to resources and improved property occurred on state or 
private lands. Santa Ana winds combined with extended drought 
conditions and high fuel loads led to extreme fire behavior and 
evacuations. October 28, 2003 had the largest acreage burned in one day 
with 135,851 acres. The Cedar Fire, on and adjacent to the Cleveland 
National Forest, burned 280,293 acres, ultimately becoming the largest 
fire in California recorded history. The Cedar fire burned 80,000 acres 
in 10 hours. These fires burned in and around wildland-urban interface 
areas, requiring extensive evacuations of communities, subdivisions, 
and ranches.

                  2004 SEASONAL WILDLAND FIRE OUTLOOK

    Weather patterns reflect a continuing drought trend through much of 
the West. The Southwest is the driest area of the West. Warm March 
temperatures have resulted in a significant reduction of Western 
snowpacks. Late March and April storms in the Southwest (especially in 
New Mexico) have delayed the onset of the fire season. However, the 
Southwest may experience a rapid escalation to critical fire potential 
in Arizona and Western New Mexico for May and June. Spring and summer 
are expected to be warmer than normal in the West, while dryness is 
expected to continue in the Southeast. Longer-term forecasts call for 
no significant improvement in terms of temperature relief or increased 
precipitation.

                       HEALTHY FOREST INITITATIVE

    Consistent with the belief that public land policies need to be 
based on common sense and common ground the Healthy Forests Initiative 
was introduced by the President to help reduce the risks of 
catastrophic wildfire to communities and the environment. The Healthy 
Forests Initiative implements core components of the National Fire 
Plan's 10-year Comprehensive Strategy and Implementation Plan. HFI 
improves regulatory processes to insure more timely decisions, greater 
efficiency, and better results in reducing the risk of catastrophic 
wildfires by restoring healthy, viable ecosystems to our forest and 
rangelands.
    In May of 2002, the Secretary of the Interior, the Secretary of 
Agriculture, the Chair of the Council on Environmental Quality, and the 
Western Governor's Association met to sign an implementation plan for 
the 10-Year Comprehensive Strategy, A Collaborative Approach for 
Reducing Wildland Fire Risks to Communities and Environment. The 
Strategy and Implementation Plan provides a road map for helping 
communities to protect themselves from the risk of wildland fire.
    The Secretaries of Agriculture and the Interior established the 
Wildland Fire Leadership Council to coordinate wildland fire management 
policies under the 10-Year Plan and to monitor accomplishment. The 
Council is a cooperative organization that includes State and local and 
tribal representatives, and is dedicated to achieving consistent 
implementation of the goals, actions, and policies of the National Fire 
Plan and the Federal Wildland Fire Management Policy.
    The Council has been leading the fire management agencies in 
eliminating interagency differences to ensure more seamless delivery of 
a coordinated fire protection program. In its first year of operation, 
the Council:

  <bullet> adopted field guidance to establish compatible, broad, 
        national standards for identifying communities at risk, while 
        still allowing flexibility at the State and regional levels for 
        risk determinations;
  <bullet> approved a policy for emergency stabilization and 
        rehabilitation of burned areas that ensures interagency 
        consistency in the timing and funding of treatments and 
        monitoring;
  <bullet> adopted a common budget structure for wildland fire 
        management appropriations; and,
  <bullet> adopted interagency direction for the implementation of the 
        Federal Wildland Fire Policy.

    We are actively using authorities under the President's Healthy 
Forests Initiative that offer additional categorical exclusions to 
accomplish hazardous fuel reduction before and rehabilitation work 
after a fire. These two categorical exclusions facilitate 
scientifically sound, efficient, and timely planning and decision 
making for the treatment of hazardous fuels and rehabilitation of areas 
so as to reduce risks to communities and the environment caused by 
severe fires. These new procedures to comply with the National 
Environmental Policy Act allow high-priority fuels reduction and forest 
restoration projects identified through collaboration with state, local 
and tribal governments and interested parties to move forward more 
quickly.
    The President sought, and in 2003 the Congress provided, long-term 
stewardship contracting authority for the Bureau of Land Management and 
expanded the limited authority it had previously granted to the Forest 
Service. Stewardship contracts or agreements allow communities, tribes, 
private companies and others to retain forest and rangeland products in 
exchange for performing services for the agencies, such as fuel 
reduction treatments, riparian improvements, thinning trees and 
removing dead wood.
    The results of this strategy are starting to materialize. In FY 
2003, the Forest Service and the Department of the Interior together 
treated more than 2.7 million acres for hazardous fuels. Of this 
amount, almost 1.6 million acres, or 58%, were treated in the wildland 
urban interface (WUI). Of the total acres, 2 million were treated by 
prescribed fire, more than 460,000 by mechanical treatments, and more 
than 210,000 by other treatments.
    In addition to the planned treatments, the agencies treated an 
additional 719,624 acres through wildland fire use the management of 
naturally ignited wildland fires to accomplish specific resource 
management objectives, such as ecosystem maintenance and restoration.
    For FY 2004, the Department of the Interior and the Forest Service 
plan to treat an additional 2.7 million acres of hazardous fuels. We 
will focus our resources to optimally mitigate fire risk by effectively 
reducing fuels and maintaining healthy forests and grasslands on 
priority projects. Forest Service research indicates that well planned 
treatments in key areas can successfully influence fire behavior, thus 
protecting many more acres than are actually treated. Two treatments, 
one a prescribed burn and one a mechanical treatment, each 
significantly altered the behavior of Colorado's Hayman Fire in 2002. 
The Polhemus prescribed burn mitigated the spread of the Hayman Fire 
despite even though the fire approached the treated area driven by 
winds exceeding 30 mph. When the fire reached the mechanically treated 
area that portion of the fire was more easily suppressed. In 2002 the 
Cone Fire entered the Blacks Mountain Experimental Forest in northern 
California. When it reached an area where trees had been thinned and 
surface fuels had been treated, it dropped from a crown fire to an 
easily controlled surface fire in a matter of feet.
    We continue to use the full range of options available to us to 
achieve our goal of restoring fire-adapted ecosystems where 
appropriate, through mechanical thinning, prescribed fire, wildland use 
fire or through other programs. For example At Oregon's 2002 Biscuit 
Fire, areas where thinning had been followed by prescribed burning 
exhibited the least burn severity of all portions of the forest that 
were studied.
    We will also continue our effective and much-needed prescribed fire 
program, including our cost efficient program in the southeastern 
United States which maintains a vegetation regime of rapidly growing 
vegetation. In the Western United States we will restore fire dependent 
ecosystems by targeting funds towards projects that achieve this goal. 
To achieve more acres treated and become more efficient in the Western 
United States, we will continue to seek opportunities to treat these 
acres through programs and projects such as stewardship contracting, 
bio mass utilization and partnerships with other Federal agencies, 
tribes and local governments.
    We do not anticipate that we will treat every acre of wildland 
forest or grassland that has a high fuel hazard. Neither the Forest 
Service the Department of the Interior or other Federal, state or local 
fire agencies can absolutely protect the growing number of homes and 
businesses adjacent to wildland areas. Given severe fire conditions and 
high home ignitability, exposure to flames and particularly firebrands 
can result in residential destruction. It is critical that private 
landowners also take steps on their own to protect their property. We 
are providing help to homeowners through research on adequate 
defensible space, educational materials and grant assistance to 
FIREWISE programs.

                           FIREFIGHTING COST

    In FY 2003, the Forest Service expended $1.02 billion to suppress 
wildfires, and the Department of the Interior's suppression costs were 
$303 million. Federal wildfire suppression costs for FY 2003 were 50 
percent above the average costs over the last 10 years. Initial attack 
success was higher than normal and both the number of fires and number 
of acres burned were below average. Three out of the last four fiscal 
years have seen Federal suppression costs exceeding $1 billion per 
year.
    We recognize that the cost of suppressing wildland fire is high. We 
need to strike a balance between the costs of suppressing fires and the 
need to protect property and resources. Large fire cost reviews, which 
began in 2003 will be continued in 2004. These reviews provide wildland 
fire management leaders with detailed on-the-ground cost information 
with which to make more cost-efficient resource decisions.
    The Departments will continue to implement appropriate cost 
reduction actions stemming from the Large Fire Cost Reduction Action 
Plan and the Fire and Aviation Management Operations Action Plan). By 
the end of this year, each Federal agency land unit will have in place 
a current or compliant Fire Management Plan. We will continue to use 
large fire cost containment oversight teams on those incidents that 
meet certain size, cost, and duration criteria. We will implement those 
recommendations contained in reports from that will improve efficiency 
and reduce costs. We will focus on making improvements as identified 
through the PART process. Finally, the President's FY 2005 Budget 
includes several cost containment initiatives such as a requirement by 
the Forest Service to establish and use cost containment performance 
measures as well as actions, together with targets and milestones.
    This year, the Wildland Fire Leadership Council also convened a 
high level panel comprised of senior State, local, Tribal and Federal 
representatives, and incident team members, representing a mix of on-
the-ground and policy expertise, to examine cost containment issues in 
a broader, land management- context to integrate suppression and 
vegetation management. The Council has taken positive actions to 
respond to key findings from the reviews including:

  <bullet> strengthening business oversight and financial management on 
        fire incident command teams;
  <bullet> developing incident cost-share agreement guidelines so 
        agreements can be in place prior to start of the local fire 
        season; and,
  <bullet> resolving problems with the Wildland Fire Situation Analysis 
        process to improve timeliness and practicality for field use.

                                SUMMARY

    With the outlook for an upcoming potentially difficult fire season, 
the five Federal land-managing agencies and our partners at the State 
and local level are doing all that we can to be prepared. Safety of 
firefighters and communities is our first priority. With the fire 
adapted ecosystems of North America, we have the challenging task of 
reducing fuels and the vulnerability of our communities to wildfire 
while restoring the health of our forests and rangelands. This 
challenge is national and long term in scope. With your continued help, 
all the agencies can accomplish robust performance-based programs for 
the nation's forests and rangelands, and do so in full collaboration 
with state governments, communities, Congress and the American people. 
We look forward to working with you in implementing the agency's 
programs and would be happy to answer any questions.

                                 ______
                                 
      Prepared Statement of Mark Rey on Large Air Tanker Contract

    Effective today, the USDA Forest Service and the Department of the 
Interior have agreed to forgo the use of large fixed-winged contracted 
airtankers for fire suppression for the remainder of the 2004 fire 
season as we evaluate the long-term options for aviation resources. In 
doing so, the Departments will terminate the national 2004 airtanker 
contract.
    This decision comes in response to recommendations contained in the 
April 23, 2004 National Transportation Safety Board (NTSB) report on 
three previous airtanker accidents.
    The NTSB report stated that ``it was apparent that no effective 
mechanism currently exists to ensure the continuing airworthiness of 
these firefighting aircraft.'' The report also concluded that the 
Forest Service and the Department of the Interior were responsible for 
ensuring the safety of firefighting aircraft.
    To continue to use these contract large airtankers when no 
mechanism exists to ensure their airworthiness, presents an 
unacceptable level of risk to aviators, the firefighters on the ground 
and the communities that we serve.
    Large airtankers are but one of the many tools that we use to 
suppress wildland fires. During any year, thousands of wildland fires 
are suppressed without the benefit of air support. We have developed a 
strategy for the 2004 fire season to supplement our wildland 
firefighting efforts with other available aircraft.
    These additional aircraft assets include the use of large 
helicopters and helitankers, single engine airtankers (SEATS) and 
military C-130 aircraft equipped with the Modular Airborne Firefighting 
System (MAFFS).
    A long-term evaluation of the mission and composition of aviation 
assets that includes certification, maintenance and inspection programs 
based on available funding will be developed by the leadership of the 
Forest Service and the Department of the Interior agencies.

    The Chairman. Thank you very much. We welcome the Senators 
that arrived. And our rule here was that we are now going to 
proceed at time of arrival, 5 minutes each. Let me proceed and 
I'll try to be brief and then yield to Senator Bingaman.
    Let me talk about the aerial fire fighting. Under Secretary 
Rey, I understand you will announce the grounding, or you have, 
of the heavy slurry bombers due to the National Transportation 
Safety Board's recommendation. I think we need a better 
understanding of what the grounding of these fire bombers will 
mean to your efforts to fight fires this Summer. Where will you 
find the heavy lift helicopters and single-engine fire bombers 
to fill in?
    Mr. Rey. Most of those will be available from existing 
contractors who have additional aircraft that they can make 
available to us for the fire fighting effort. We're now in the 
process of deciding what the best configuration of additional 
aerial assets is and then we will commence to modify the 
contracts to secure the additional planes.
    The Chairman. So are you telling us that what you think 
will be available by virtue of assets that are out there is a 
new configuration and new contracts that will end up with the 
same kind of fire fighting ability from the air as we have now?
    Mr. Rey. It's our judgment that there are alternative 
aircraft available which should give us comparable fire 
fighting capability.
    The Chairman. How much more money will this cost as 
compared to the cost of the heavy bombers that you need to rely 
on?
    Mr. Rey. Depending on the exact configuration that we 
ultimately select, we anticipate that the additional cost will 
run somewhere between $26 and $40 million.
    The Chairman. Do you expect to use more military C-130s 
this year?
    Mr. Rey. Yes. That would be part of the backfill plan.
    The Chairman. If the C-130s that the contractors provided 
are not safe, why do you consider the military reserve aircraft 
to get called up for fires to be safe?
    Mr. Rey. The military reserve aircraft are newer models of 
the C-130s than our private contractors were flying. 
Additionally, the military takes responsibility for the 
operation and maintenance of the aircraft and we have every 
reason to believe that the aircraft are safe to operate.
    The Chairman. Ms. Scarlett, these aircraft are critical to 
fighting fires in Alaska. What will the BLM do to provide 
enough aerial support to combat the fires in Alaska?
    Ms. Scarlett. Senator, we have, in light of the NTSB report 
put out to the field a request that each field location come 
back with projections on how they would plan to replace those 
aircraft. We have not yet received those but when we get that 
information that will come together and we'll certainly provide 
you with that plan ultimately.
    The Chairman. Let me continue. The 2003 fire season cost 
more money per acre per fire than any other fire season in 
history. We need to make the point that agencies' fire spending 
seems to be out of control. Mr. Rey, last year you only burned 
3.9 million acres and had only 63,000 fires, the lowest number 
since 1922, but your agency and the DOI agency spent over $1.2 
billion. What steps have you taken to control your fire 
suppression costs or is that not possible and not warranted?
    Mr. Rey. Controlling fire suppression costs is both 
possible and necessary. The number of acres burned is not 
necessarily the best metric in evaluating how severe or costly 
a fire season will be, however. A lot depends on what burns and 
where it burns. In some years we can burn several hundred 
thousand acres in interior Alaska at no cost because we don't 
do much to suppress fires that are in that remote a location. 
Unfortunately, in 2003, we had a significant number of 
ignitions in areas with either extreme fuel loads or in the 
wildland-urban interface, where fire fighting is most expensive 
on a per acre basis because of the assets and property that 
we're trying to protect. And that's why the costs were up and 
acres down in 2003.
    An important thing to keep in mind, as you're looking at 
fire fighting costs, is that 85 percent of the money that's 
expended on fire fighting is expended on the one to two percent 
of fires that escape initial attack. So when you look at how 
you're going to try to control fire fighting costs, the first 
thing you look at is your positioning of assets to maximize 
your success in initial attack. That more than anything is 
going to reduce your fire fighting costs. Then you go to your 
large incident fires and you do a cost review to see where 
costs can be reduced or contained, and we've done several of 
those reviews over the last couple of years.
    The Chairman. My last question is a follow-up on an 
observation that Senator Bingaman made. I can't think of an 
issue, with reference to fire fighting, that has more burdened 
us than the one of us putting in the appropriation and then 
finding that during the year you don't have enough and you have 
to go borrow from the ongoing accounts. Frustration with 
reference to that is rampant. What do we do about that? Now, 
are we making a mistake in not putting enough in? Are you 
giving us the wrong estimates? Or just why do we have to 
continually borrow from Peter to pay Paul when, as Senator 
Bingaman said, it isn't as if we're taking it from something we 
don't need; it's taking it from ongoing efforts that we all 
think we paid for.
    Mr. Rey. The frustration over fire borrowing is not limited 
to your side of the dias. It's an extraordinarily frustrating 
aspect of the program to administer for us as well. Our budget 
requests for fire suppression are not mysterious. We request 
the 10-year average of what we spend the previous 10 years 
simply because it's impossible to predict upwards of 18 months 
out how a fire season is going to shape up. Unfortunately, the 
last several fire seasons have been bad ones and so we've been 
exceeding the 10-year average in every instance. I think that 
the change that you, Mr. Chairman, helped to produce in this 
year's budget resolution would help. That would provide 
significant assistance in avoiding that sort of borrowing, if 
the budget resolution passes.
    The Chairman. Senator Bingaman.
    Senator Bingaman. Thank you, Mr. Chairman. Let me follow-up 
on this same issue, because I do think that a significant part 
of the problem that causes all this borrowing is, in my view, 
the fact that the administration doesn't ask for enough money 
for fire suppression each year. Now, I understand you ask for 
the 10-year average. We have all of these folks who are expert 
in predicting where we are. We've got this forecast up here on 
the chart; this is done, as I understand it, by the National 
Interagency Fire Center up in Boise, where there are a lot of 
experts such as meteorologists. It strikes me that there is a 
total disconnect between our ability to predict and our 
budgeting. It doesn't matter what the prediction is for 18 
months from now; we're going to ask for the 10-year average. I 
mean, that's our basic policy, as I understand it. So the 
predictive capability that we've developed is totally unrelated 
to our budgeting decisions in requesting money. Has there been 
any thought that maybe you ought to go back and look at whether 
or not this is the right method, this 10-year average? We are 
in a long-term drought in the West. Every year we have this 
same hearing or several hearings like this where we come in and 
talk about how we're going to have a worse than usual fire 
season. At some point you'd think that would be factored into 
the budgeting and to the budget requests we get from the 
administration.
    Ms. Scarlett. As Mark said, we have continued to use the 
10-year average because that is the only tool that we really 
have had available to us in recent years and as recently as the 
mid-90s, actually, we were putting forth fire suppression 
budgets that were above, in fact, what was utilized in those 
years. Having said that, we are looking at other models, and I 
know that the GAO, for example, is doing a report; we look 
forward to that report. We ourselves----
    Senator Bingaman. When will that report--who's doing that 
report?
    Ms. Scarlett. I believe there's a GAO report that is 
looking at fire suppression.
    Senator Bingaman. But internally you're not doing anything?
    Ms. Scarlett. We are also internally looking at the 10-year 
average, looking at how well that has served us. It's highly 
variable year-by-year so that, as I said, as recently as 1998, 
our fire suppression budgets exceeded what we actually 
utilized.
    Senator Bingaman. But you were using the 10-year average 
then, too.
    Ms. Scarlett. That's right.
    Senator Bingaman. What I'm saying is, you've got all of 
these experts sitting around Boise, Idaho, who are supposed to 
be able to predict this stuff to some extent. Why don't you 
take their suggestion, and if it's low then ask for less; if 
it's high, then ask for more? But why don't we budget on the 
basis of the information that we've got?
    Ms. Scarlett. Senator, as Mark Rey alluded, one of the 
challenges that we face is that we craft our budgets a good 18 
months before the actual fire season and the budget in question 
occurs. At that point in time critical information, such as, 
for example, snow pack runoff and weather patterns are really 
not available to us.
    Senator Bingaman. Well, I understand that. But it does seem 
like even 18 months out it would be better to make our best 
estimate than it would to just take a 10-year average. I think 
that the best estimate these experts could give us would be 
more accurate than what we've been doing. Anyway, I would just 
urge you to go look at the method and the models that are being 
used and see if we can't revise those to get a little closer to 
reality.
    Let me ask about two other issues. When Chief Bosworth was 
here a couple of months ago, I asked him about the, what I 
considered the unsafe and inefficient operation or working 
conditions we have at the fire cache down in my hometown of 
Silver City, New Mexico. He said he was going to look into that 
and see if anything could be done to upgrade that or make the 
facility more useful. It serves all of New Mexico and 
significant parts of Arizona, Texas, and Oklahoma as well. Do 
you know, Mr. Rey, if anything's been done about that?
    Mr. Rey. We've looked at the facility; it's less than 
ideal. We're now costing out what it would take to reconfigure 
or replace the facility.
    Senator Bingaman. Okay. So I appreciate that and I hope 
something can be done along those lines.
    Let me also ask about fire use. My understanding is that 
when you start trying to head off fires there are sort of three 
things that are helpful here. One is natural fires, which 
reduce fuel load, of course. Second is prescribed burns, which 
is sort of a substitute for natural fires. And third is this 
mechanical removal of underbrush and excess fuel. I guess I'm 
concerned that I don't think that the management of natural 
fires to accomplish this thinning activity is given enough 
attention. I don't know that your policies have adjusted so 
that, in fact, you are seeing this as an integral part of 
dealing with the problem of too much fuel load. I'd be 
interested in any thoughts you've got on that.
    Ms. Scarlett. Yes, Senator, we agree that wildland fire use 
is very much an integral part of getting our hands around the 
forest restoration challenges we face. In 2003, we actually, in 
addition to the 2.7 million acres of hazardous fuels reduction 
projects that we undertook, we did have 700,000 acres of 
wildland fire use. We do those when a fire management plan 
indicates that an area, should a fire strike, can simply be 
safe to have that fire burn out. One thing we are doing, 
though, is to re-examine those fire management plans to see if 
they really do adequately and fully take into account the 
ability to utilize wildland fire use to its greatest extent.
    Mr. Rey. As our fire plans are updated, I think you'll see 
a greater reliance on wildland fire use. And we plan to have 
all of our fire plans updated by the end of this year. The 
important thing, when we choose to let a fire burn, is that we 
have enough information about the fuel conditions, the weather 
at the time and the other variables to make sure that the fire 
will burn in the way and in the fashion and in the places we 
expect it to.
    Ms. Scarlett. Senator, I might add one more comment. The 
Wildland Fire Leadership Council has convened a high level 
panel that I mentioned in my testimony. One of the charges of 
that panel is to look precisely at that question of whether we 
can better utilize wildland fire use as a means both of 
achieving healthy forests but also of reducing our suppression 
costs.
    Senator Bingaman. Thank you.
    The Chairman. Thank you, Senator Bingaman.
    Senator Craig.
    Senator Craig. Mark, the chairman and I were just saying, 
``Remember Los Alamos.'' We want you to have that ringing in 
your ear as you assess fuel loads and weather conditions for 
wildfire environment. We burned a town down and had to pay for 
it and I don't think we want to get caught in that scenario 
again.
    The Chairman. A billion dollars.
    Senator Craig. A billion dollars worth. The Agency expended 
$1.2 billion before October-November fire storms in southern 
California; the Senator from California is with us. Preliminary 
cost estimates of the 13 southern California fires exceeded 
$122 million; two of the fires exceeded $30 million each, the 
Cedar Fire in San Diego, the Old Fire in the San Bernardino. 
These last season costs will account against the 2004 fire 
season and could force, in my opinion, if we get the kind of 
seasons we've been having, massive fire borrowing in the 
current fiscal year if the season turns out to be an average, 
as expected. Would you concur with that?
    Mr. Rey. I think there's that possibility, yes.
    Senator Craig. Why aren't we then doing 5-year averages on 
fire costs instead of 10-year averages, because the last 5 
years seem to have been exceptionally costly. We could do that, 
you could push a computer button and get a 5-year average 
versus a 10-year average and the money would rachet up 
dramatically. But then you'd have to request more and OMB 
probably wouldn't like that. How do you propose to solve that 
problem?
    Mr. Rey. They generally don't like to request more, that is 
a true statement.
    The Chairman. Get rid of OMB.
    Senator Craig. I think you've got a unanimous vote on this 
committee to get rid of OMB. Your answer?
    Mr. Rey. I think the compressing the average to a 5-year 
average, while it serves you better in an up cycle may serve 
you less well if you have five relatively mild years because 
then your 5-year average is going to catch you very short if 
you follow that then with a very bad year. The fact is, as 
Assistant Secretary Scarlett indicated, the factors that give 
you good predictive ability about what a fire year is going to 
be like don't come into play with any kind of precision until 
about January or February of the year you're in. And by that 
time our budget is already up here on the Hill. So almost 
anything we do is either going to be an average or an estimate, 
and some years we'll hit it better than others. But we really 
don't have the kind of information we're sharing with you now 
about snow pack, about river flow, about fuel moisture until 
we're into the April time frame in any given year.
    Senator Craig. Well, both the Senator from Montana and I 
have driven across our respective States in the last two weeks. 
We will tell you, we're damned dry out there and it's going to 
get drier.
    Ms. Scarlett. Senator?
    Senator Craig. Go ahead, Ms. Scarlett.
    Ms. Scarlett. I was going to add another complicating 
factor here. Right now, for example, year-to-date, we're 
actually slightly behind, even including the California fires, 
of the 10-year average number of acres burned. But what's 
driving some of these costs is not the acres and our ability to 
predict that we might have a bad fire year but also where they 
are occurring. The very high costs----
    Senator Craig. Part of the California costs----
    Ms. Scarlett. That's exactly right.
    Senator Craig. Was in a quasi-urbanized area.
    Ms. Scarlett. That's right.
    Senator Craig. I understand that.
    Ms. Scarlett. And that's what makes, of course, the 
wildland-urban interface treatment so critically important in 
our fire wise activities with communities so important.
    Senator Craig. Well, I understand your effort to explain 
it. But I think the first response was the most logical. To ask 
for more money means you're going to have to fight with OMB and 
the overall budget problem and that's a fight frustrating to 
have. Now, here are the consequences of failing to do that. The 
Senator from Oregon just spoke to the amount of money we wanted 
to put in for Healthy Forests. During the last 5 years the 
Agency has borrowed $2.7 billion from numerous accounts for 
fire fighting. Approximately 80 percent of those funds were 
eventually replenished. What wasn't replenished was about $540 
million that was programmed, across the agencies, to be put on 
the ground for a variety of purposes that never got there. But 
the day of the K-V funds in the Fire Service, the Knudsen-
Vanderberg funds are gone. They were depleted by the Clinton 
administration, we don't have green sale cut anymore to 
replenish them. You used to be able to borrow out of them, we 
could do a supplemental appropriation and we'd get ourselves 
whole at the end of the season or end of the next fiscal year. 
Those are scenarios that don't exist today. Fire fighting costs 
more. So we can talk about time and location and condition or 
we can take the reality of where we are and start funding it. 
Because if we fail to do that the other kind of work that the 
agencies do, both Forest Service and BLM, on the ground, that 
we expect you to do as programmed efforts, won't get done or 
aren't getting done. And over the spread of that 5 years, if 
you take out $100 million a year, and this, in the case of the 
Forest Service, that's a very real problem. And we're feeling 
it on the ground, ranger district by ranger district across my 
state.
    Mr. Rey. I don't think either of us are here to defend fire 
borrowing as a tool for funding fire fighting. And I think 
you're correct, that the days that that process worked well 
were days of yore when there were sufficient balances in trust 
funds that the borrowing could be made from those trust funds 
without interfering with the day-to-day operation of other 
programs. Unfortunately, those trust funds were not fully 
repaid and they've diminished as well for other reasons also. 
So I don't think anybody on this side of the dias is defending 
fire borrowing. We need an alternative. Fortunately, you all 
have come up with one that I think is workable in the budget 
resolution.
    Senator Craig. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman. Mr. Rey, Ms. 
Scarlett, there's no question in my mind that very soon 
thousands of people in fire-prone communities are again going 
to be tossing everything they can fit into their cars and 
fleeing from their homes without knowing if anything will 
remain when they return. That's the reality of the West. We've 
already had fires in Oregon; Senator Feinstein's already had 
fires, her colleagues have mentioned their concerns as well. I 
agree with everything said by Senator Domenici, Senator Craig, 
Senator Bingaman. But I'll tell you, I'm concerned about this 
year, right now. And the whole point of the forest health 
effort has been to try to make a break with the past. And I put 
into the record, as you heard me say, the documentary evidence 
of the under funding of the Hazardous Fuels Reduction programs. 
Every one of those Hazardous Fuels Reduction programs that is 
funded means that much less acreage is at risk from the 
catastrophic fires; that's what we do when we fund them and you 
all know this, you know, better than I. I was able to get in 
the budget resolution an increase that would be more than $300 
million per year, as a member of the Budget Committee, so that 
we could fully fund those Hazardous Funds Reduction programs.
    My first question to you is, and perhaps to start with you, 
Mr. Rey, is what is the administration doing, given the fact 
that the budget resolution is in conference now--went to the 
floor and spoke just a couple days ago to try to get it 
funded--what's the administration doing to try to get full 
funding for the Hazardous Fuels Reduction programs that you put 
so much more acreage at less risk? Mr. Rey?
    Mr. Rey. The simple answer is we think our fiscal year 2005 
budget request did ask for full funding for the projects 
described in the Healthy Forest Restoration Act and that that 
request was about $100 million increase over fiscal year 2004 
levels. It will produce close to 4 million acres of fuels 
treatment work in 2005, maybe slightly more than 4 million 
acres of fuels treatment work, and that number would be an all-
time record. And so I think that's good progress toward an 
ultimate goal. The ultimate goal is we've probably got 
somewhere in the neighborhood of 80 or 90 million acres of 
priority treatments that need to be made, either in the 
wildland-urban interface or where other critical ecological 
values are at risk. And we're on a path to continue to ramp up 
our effort, both by requesting increased funds and by trying to 
reduce the unit costs of the work involved to make those funds 
go further.
    Senator Wyden. I think before we get into the eye-glazing 
sort of exercise of which account is here and which account is 
there, I already mentioned that your spokesman, Joe Walsh, was 
quoted as saying the budget only calls for $417 million. This 
is your person for hazardous fuels----
    Mr. Rey. That's 2004.
    Senator Wyden. I'm reading right from--however, the 2005 
proposed budget calls for only about $417 million for hazardous 
fuels reduction efforts according to Forest Service Spokesman, 
Joe Walsh.
    Mr. Rey. Strictly speaking, he was quoting the number in 
that line item. But that line item alone doesn't encompass all 
of the work that we do in this area.
    Senator Wyden. That's fine. What I want to hear is what's 
the administration doing with both the budget, which is in 
conference now, where I'm trying to get it to $760 million and 
if we're not successful there we're going to be uphill in terms 
of the appropriations process, what's the administration doing 
on the budget and on appropriations to get us to the full $760 
million which we worked so hard on a bipartisan basis to turn 
this situation around?
    Mr. Rey. It's our judgment that if you accept our 2005 
request you'll be at $760 million.
    Senator Wyden. I can only tell you that both the budget and 
the appropriations process leaves me very much in doubt whether 
we are going to get full funding of hazardous fuels reduction. 
And when we look at the sleight of hand that has already been 
described, of robbing one account to another, and that's what 
it is. It's not sleight of hand if you live in Cave Junction or 
Joseph. Those people are not seeing the money get out there. I 
mean, period. That's what they tell us. They are not seeing the 
money get out there. And I hope that the administration will do 
everything possible with the budget conferees who are meeting 
now. I mean, that conference is going on now. And if I and 
others are not successful we'll be $300 million plus short 
there of $760 million. And that's, again, that is the quote of 
your spokesman. And then we've got to go to the appropriations 
process where we're fortunate to have Chairman Domenici, 
Chairman Burns and others there. But we need the administration 
to be vocal and visible on the budget and appropriations issue 
because the dollars are not getting out there. And the whole 
point of the hazardous fuels reduction provision in Forest 
Health was to change this and to put less acreage at risk. And 
I can tell you, Senator Smith is here as well; he hears that 
our acreage, we still have enormous amounts of acreage that's 
at risk and I don't think you can justify this under funding.
    Thank you, Mr. Chairman.
    Mr. Rey. Well, we can debate whether the amount is too 
large or too small. But what is indisputable is this is the 
most any administration has ever asked for to do this work. 
That's indisputable.
    The Chairman. Thank you very much. On our side, Senator 
Thomas is next.
    Senator Thomas. Thank you, Mr. Chairman. Well, thank you 
both for being here. This is a difficult issue, of course and 
Mark, we've been talking about the money, which I understand is 
a difficult thing but the fact is that fires are a part of 
nature and we have less fires than we used to because we want 
to. We used to let them burn and now we don't. But 
notwithstanding the money, we've talked about clean forests, 
we've talked about beetle kill, we've talked about thinning, 
and the forests I'm familiar with, I haven't seen much of that 
happening. Aside from the money, what's really happened in 
terms of Healthy Forests?
    Mr. Rey. What's happened is we hit an all-time record of 
2.6 million acres treated last year. That's the most----
    Senator Thomas. Treated? What do you mean treated?
    Mr. Rey. Thinned. Fuel reduced.
    Senator Thomas. Where?
    Mr. Rey. Throughout the country, including some in Wyoming. 
I'll take you out and show you some in Wyoming.
    Senator Thomas. I'll take you out and show you some where 
there's tons of beetle kill that's never been touched.
    Mr. Rey. There's no question----
    Senator Thomas. I'll take you to the Shoshone and they have 
a plan that's never been implemented.
    Mr. Rey. There's no question that there are 80 to 90 
million acres of priority treatments that need to be made, that 
we've got to ramp the program up to get to the point where we 
can do that job in an eight to 12 year time frame. But 
realistically, that's what it's going to take. It took us 100 
years to get into this situation and we're not going to get out 
of it overnight.
    Senator Thomas. I don't accept the 12-year thing. I just 
don't understand that. You've got the various people on the 
ground now in the various forests that can do some of those 
things, and it seems like we wait until the fire season's upon 
us and then we get all excited about it. But I don't hear much 
about it off-season, which is when we really ought to be doing 
the protection.
    At any rate, let me go back to the airplanes just a minute. 
We've been through the airplane thing, as you know, for several 
years in Wyoming. Critical problems happened in 2002. Now we're 
going into 2004. A lot of these owners have spent literally 
hundreds of thousands of dollars on these airplanes and now, 
right into the beginning of the season you suddenly say we're 
not going to use them. Isn't the timing a little strange? Now, 
I know you're going to say, well, we got the report. But why 
didn't we get the report a year ago? Those things happened in 
2002.
    Mr. Rey. I can't tell you why it took the NTSB a year-and-
a-half to complete their investigation. What I can tell you is 
that in 2002 we undertook our own review of the safety of the 
large air tanker fleet and made several changes that we hoped 
would assure the air worthiness of these aircraft. 
Unfortunately, the NTSB disagrees. Their report is, I think, 
not something that can be disputed and so now we're going to 
have to adjust and move on. Would I have liked to have gotten 
the NTSB report five months ago or six months ago? Sure. But I 
don't always get what I want around here.
    Senator Thomas. Really?
    Mr. Rey. If I got what I wanted we'd be in a period of 
budget surpluses and above average rainfall. But neither is the 
case.
    Senator Thomas. Well, you don't have much to do with 
rainfall but you do have something to do with the oversight of 
these airplanes. And why you haven't been involved more with 
the FAA over the years I don't know. The Forest Service is not 
the people to take a look at the safety of airplanes.
    Mr. Rey. We freely acknowledge we lack that expertise.
    Senator Thomas. That's exactly true. But it took a long 
time to even do that, Mark, and I guess the timing, again, why 
didn't you tell these people last fall that this was likely to 
happen? Now they've invested a lot of dough and have already 
used some of the airplanes and now they can't use them. And 
you're going to be shorthanded.
    Mr. Rey. I think we will not be shorthanded. We will have 
to stretch to move quickly to reconfigure the fleet but I think 
we'll be just fine in terms of fire fighting capability.
    Senator Thomas. Well, we'll see. We've been working with 
the Wyoming National Guard to do some of that, now the National 
Guard's very involved in Iraq and I think you're going to find 
that there are going to be some real difficulties there. In any 
event, the point is, if you're going to use the private sector, 
which I endorse, then you have to use the FAA and you have to 
use the others to go through the question of the viability of 
the aircraft. And you can't wait until it's time for the forest 
fires to begin and then suddenly say that we aren't going to 
use them.
    The Chairman. Senator, I think you can say you can't wait 
for the accidents.
    Senator Thomas. Oh, absolutely not.
    The Chairman. That's what happened.
    Senator Thomas. Well, we had the accidents 2 years ago.
    The Chairman. Yeah, well, that didn't bring it either.
    Senator Thomas. Well, in any event, I think we're going to 
have to do some other things. And I hope you can get out and 
get your various forces going on some things in terms of this 
Healthy Forest business, particularly in the area where there 
are facilities. One of the problems there is when you begin to 
thin around the facilities why, the owners of the facilities 
don't want you to touch it and your guys back away. And I 
understand that. At any rate, it's a tough problem and I know 
we need to work together to get some work done on it. And thank 
you.
    The Chairman. Senator Feinstein. Well, Senator Bunning, I 
believe, has arrived next. Senator Bunning, would you permit me 
to have half-a-minute and then I would ask Senator Thomas if he 
could preside for just about 10 minutes, could you do that?
    Senator Bunning. Go right ahead, Chairman.
    The Chairman. All right. Senator Bunning, could I just take 
a minute? I want to ask you, you made a statement awhile ago 
and I noted it in your testimony, that with reference to 
activity on the part of the Federal Government to thin and 
reduce this overage that causes the fires, that we've done more 
than we've ever done before. Can you just tell us a little bit 
about what that means? It would seem to me you gave us a big 
number but we have Senators here who seem to wonder, looking at 
their own States, whether that's really a lot or whether that's 
just a little bit, or just tell us what that means.
    Mr. Rey. Okay. Let me just start with the larger numbers 
and then move to annual accomplishments. Our estimates are that 
there's about 190 million acres of Federally owned forest and 
rangeland at risk because the stands are too dense, the brush 
is too thick, there are insect- or disease-infestations or 
other sorts of things but those are the main factors. Of that 
190 million acres, not all of it needs to be treated. Not all 
of it should be treated. Some of it's in remote locations in 
areas where fire frequency is not that great, like interior 
Alaska. So you deduct the areas that don't need to be treated. 
That leaves you with about 80 to 90 million acres of priority 
treatments in the wildland-urban interface, in municipal 
watersheds, in other areas where there are ecological values at 
risk. Our accomplishment last year was 2.6 million acres. Our 
accomplishment this coming year will be just under four. Our 
proposed accomplishment for 2005 will be just over 4 million 
acres. We're going to need to get to the point, I think, where 
we are reliably treating about ten million acres a year. And if 
we can get to that point then we have, I think, a program of 
work that addresses the problem of treating the 80 to 90 
million acres in about 10 years' time. I don't honestly think 
it's going to happen any sooner than that because we've 
basically doubled our annual rate of performance from where it 
was in 2000; we're coming at the end of 2005 to doubling it 
again. We'll have to double it a third time in order to get to 
eight to ten million acres of annual treatment and I don't 
think you're going to see Federal programs, many Federal 
programs, accelerate that rapidly. That's going to have to be 
an increase in investment and funding and a significant 
increase in the efficiency with which we undertake these 
activities. We're going to have to continue to streamline our 
procedures, hopefully win all of the administrative appeals and 
legal challenges that are presented by people who oppose this 
work, and try to resolve this problem in about that time frame.
    The Chairman. All right, thank you.
    Senator Bunning.
    Senator Bunning. Thank you, Mr. Chairman. I have a 
statement I'd like to put into the record.
    The Chairman. It will be made part of the record.
    [The prepared statement of Senator Bunning follows:]
   Prepared Statement of Hon. Jim Bunning, U.S. Senator From Kentucky
    Thank you, Mr. Chairman.
    Today's hearing on wildfires is important for the protection of 
communities, natural resources, and forests nation wide. I believe that 
assessing the factors behind the rash of recent devastating forest 
fires, as well as advancing the determination of solutions to such 
problems, is significant for the health and welfare of communities, 
industry, and environmental treasures across America.
    Kentucky boasts two national forests: the Daniel Boone National 
Forest and the Land Between the Lakes National Recreation Area. The 
preservation of these lands from forest fires and other forms of 
natural disaster is of paramount importance to myself and my fellow 
Kentuckians.
    Kentucky has worked hard to maintain healthy forests. While I know 
that western forests have been more affected by wildfires in recent 
years, I hope that Kentucky's forests are not forgotten in future 
forest fire programs.
    I appreciate the time that our witnesses have taken today to 
testify. I look forward to hearing their thoughts on fire risk 
reduction and restoration practices.
    Thank you, Mr. Chairman.

    Senator Bunning. Okay. I'd like to just briefly touch back 
on the large tanker air support and the untimely removal of 
that support for fighting fires. I seriously doubt that your 
agency will be able to fight the oncoming fires efficiently and 
effectively as though they were used using large tankers in the 
past. I have serious doubts and only after the fact we'll be 
able to determine whether you are right, the NTSB was right, 
and if there isn't contractors out there who could furnish air 
worthy aircraft to do the same job that not air worthy aircraft 
have been asked to do in the past. I think it's up to your 
agency and your responsibility to find aircraft that are air 
worthy, whether it be in the public or the private sector. That 
said, I'll go to other places.
    The recent rash of wildfire outbreaks that have occurred in 
the Western part of the United States have turned our focus on 
wildfire prevention and forest restoration initiatives. 
However, many States in other areas of this country also boast 
forests that have been and will be subject to forest fires. 
Kentucky in particular is home to two of the largest forest 
areas, the Daniel Boone National Park and Forest and the land 
between the Lakes National Recreation Area. How does the 
restoration-based fire fuel reduction and Forest Health Project 
address the different geographic needs of these regions?
    Mr. Rey. When we looked at the Southeast, we were looking 
at a system that is every bit as fire prone as the West. 
Fortunately, the forests in the Southeast are in better shape 
right now, generally speaking, and we do a lot of varied fuels 
treatments works, including a significant amount of prescribed 
burning because we can burn more safely given the reduced fuel 
loads in our Southeastern national forests. That region, in 
fact, is where we do the lion's share of our prescribed 
burning. So that the issues aren't too much different. The 
techniques aren't that much different. I guess the biggest 
difference in the Southeast versus the inner-mountain West, in 
particular, is that our forest ownership aren't as large and 
unbroken, which means there is better access to do fuels 
treatment work and to do prescribed burning, number one. And 
number two, the fuel loads aren't quite as heavy in the 
Southeast because of the program of fuel reduction and 
prescribed burning that we've done over the years.
    Senator Bunning. This has been brought out before but I 
have to bring it out one more time. Last 5 years, agencies, 
you've borrowed $2.7 billion from other accounts. Why are the 
agencies so under funded over the last few years to fight 
fires?
    Mr. Rey. It's not that we've been so under funded, it's 
just that the 10-year average hasn't been a very reliable 
barometer of the fire seasons that we've been experiencing.
    Senator Bunning. Yet there has been no adjustment to that 
in the 2005 budget, is that correct?
    Mr. Rey. There wasn't a basis for making an adjustment 
other than just rough predictions.
    Senator Bunning. Other than the fact that you've borrowed 
$2.7 billion over the last 5 years. That's a pretty good 
indication that you've been falling a little short in your 
requests.
    Mr. Rey. It's a good indication that the fire seasons have 
been bad, that's right.
    Senator Bunning. Well, 2003 was only bad in the point of 
location of the fires. I mean, the amount of fires, the acreage 
burned, was not as bad as in the past.
    Mr. Rey. That's right.
    Senator Bunning. So, I mean, if we could pick and choose 
where they have a fire it would be wonderful but we can't do 
that.
    Mr. Rey. That's also correct.
    Senator Bunning. So your agency hasn't anticipated the fact 
that we could have a fire in a very populous or fringe area 
where we burn 30-some hundred homes down. Have you?
    Mr. Rey. We don't have the predictive capability to know 
where the fires are going to ignite.
    Senator Bunning. Well, we understand that. I mean, that's a 
given. But there is a given that you've overused--by borrowing 
$2.7 billion, you've overused the money that's in other 
accounts and therefore, in the future, to make up the money 
that's been used you're going to have to request a larger--
whether OMB likes it or not--a larger request from OMB. You've 
got to face the facts.
    Mr. Rey. The facts may change.
    Senator Bunning. Yeah, they may change but are you going to 
make the two-seven up somewhere else? How are you going to make 
it up?
    Mr. Rey. The traditional way has been through a 
supplemental appropriations bill that----
    Senator Bunning. Well, we're not going to be able to do 
that. You understand that?
    Mr. Rey. I understand.
    Senator Bunning. So, how are you going to do it?
    Mr. Rey. We'll do it by borrowing from whatever accounts 
are available to continue the fire fighting effort.
    Senator Bunning. That's just a continuation of bad policy. 
Period.
    Mr. Rey. I don't disagree with that but that's the only 
avenue available right now.
    Senator Bunning. Ask for more from OMB so we can put it in 
the budget. That's the answer, whether you like it or whether 
you don't like it.
    Mr. Rey. Okay.
    Senator Thomas [presiding]. Thank you, Senator.
    Senator Bunning. Thank you.
    Senator Thomas. Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman. In 
listening to this, Senator Burns is the chairman of the 
Appropriations Subcommittee and I'm a member of that 
subcommittee. I think we've got some work to do to see that the 
funding, as it comes out of our subcommittee, is adequate for 
this.
    Senator Smith. Don't listen to him.
    Senator Feinstein. Right. Right. Let me just begin, Mr. 
Rey, with thanking you and the Secretary for changing the local 
county match from 25 percent to nothing for the Natural 
Resources Conservation Services for watershed protection. It's 
very much appreciated. And Ms. Scarlett, I'd also like to thank 
you and the Interior Department for at least reducing the 
Forest Service match from 50 to 25 percent. I think that's 
appreciated as well. I want you to know that I agree with 
Senator Craig that it would be much better, I think, for the 
times we're in if a 5-year average could be used instead of the 
10-year average. I think it's much more realistic.
    Now, only $30 million of the $120 million is projected to 
be spent this year for removal of dead trees. And I'm very 
concerned with the Bark Beetle Forest in California, which has 
to be probably our largest priority. I was talking to someone 
from Sierra Pacific Industries and, as you know, there's a 
certain use for even the bark beetle-infested trees if you can 
get to them in the first 6 months to a year. But they said it's 
almost impossible because they've got to bring the trees out to 
Senora to a rail line, and the thought occurs whether it's 
realistic to build a mill in that area for a company. Do you 
have any analysis on that, whether it could be a realistic 
enterprise to develop a mill to get to these trees fast enough, 
since there's so many of them?
    Mr. Rey. I don't think that, given the reviews associated 
with a siting decision of a new manufacturing facility in 
southern California, it's realistic to look at that option, in 
all honesty. I mean, I think it would probably take somebody--
even somebody who had the capital available--3 to 4 years just 
to get through the permitting process in those southern 
California counties. So I think our better bet is to try to 
move as much of that material as we can and then just deal with 
the rest as a landfill problem. Right now the market for pine 
is up, so that's helping. Material that would have otherwise 
been land filled will move to mills in the southern Sierra or 
in the northern part of the State and we can hope that that 
will continue. But I'm sorry to say I find it difficult to 
imagine that you could get a fully permitted, new manufacturing 
facility in place in that part of the State in a time frame 
that would help.
    By the way, the $30 million, that will increase now with 
the waiver of the local match; the counties should be able to 
more faster. So you'll see more of that money spent this year.
    Senator Feinstein. I would very much appreciate it if you 
could pay some special attention to it. Because in reading the 
staff memo, the number of acres in California that have been 
treated, in comparison to others, are very low. BLM treated 
438,500 acres of which California was just 12,000. And the 
hazardous fuels treatments in--so far, 2.3 million acres, where 
only 167,000 acres. So I am very concerned. The weather has 
been abnormally warm so far this year in southern California 
and there is so much of that bark beetle stuff that we have 
already had 20 fires; it can get much, much worse. So anything 
that you could do, and I'll certainly work with you in any way 
I can, to move that along. But if you would please, both of 
you, to your Secretaries relay my thanks on the county match, I 
think that will be a big help. Appreciate it very much.
    Mr. Rey. Thank you.
    Senator Feinstein. Thank you. Thank you, Mr. Chairman.
    Senator Thomas. Thank you very much. I hope--from both of 
you--I hope we don't forget the possibility of using the 
private sector to harvest some of these places. And if they're 
supervised properly you don't have to worry about the 
environmental aspect of it. So, to talk always about not having 
enough money, there are people willing to actually pay, or at 
least remove these things and I hope we use the private sector.
    Senator Burns.
    Senator Burns. Thank you, Mr. Chairman. I've just got a 
couple of questions and I have a statement I'd like to have put 
in the record. And also, there is going to be some testimony 
offered by Douglas Herlihy, I think, before the House next 
Thursday, with regard to those tankers. Secretary Rey and I 
would appreciate if maybe after that testimony is offered and 
some of the questions that he raises about those tankers we 
might have a visit, and we'll do that off-camera, so we'll take 
care of that.
    In these areas where we have an interface, an urban 
interface with the Forest Service and the BLM, we've seen 
homes--I know in my State they were built in the wrong place, 
to be honest with you. They're built in the forest and those 
areas. What kind of a fire prevention responsibility do those 
homeowners have?
    Mr. Rey. I think they have responsibility to try to make 
their homes as safe and fireproof as they can. And I think that 
over time we're going to see that enforced by the insurance 
industry.
    Senator Burns. Well, they tell me you can't get insurance 
now. But I mean, do they have any responsibility of getting 
some of that fuel load off of the floor of that forest that 
would burn? And how much--how far can they get that away from 
their property?
    Mr. Rey. Well, it depends on how much property they own.
    Senator Burns. No, but can they do it in the forest though?
    Mr. Rey. On the Federal land?
    Senator Burns. On their own? On their own and pay for it?
    Mr. Rey. No. I'm afraid that we could not have them do work 
on Federal land on their own.
    Senator Burns. Why?
    Mr. Rey. I would imagine that the usual people who object 
to these kinds of projects would have something to say about us 
allowing homeowners the ability to start to do fuels treatment 
work on the Federal forest on their own.
    Senator Burns. I mean, removal of underbrush and grass 
that's grown up and--they can't remove that?
    Mr. Rey. They're not supposed to. Some probably do. But 
generally speaking we like to make sure that----
    Senator Burns. I know if I owned a big old house up there 
I'd go out as far as I could go.
    Mr. Rey. Yeah.
    Senator Burns. Tell me about grazing permits. Where are you 
on the issuance of grazing permits? Are we still behind?
    Mr. Rey. We're still behind but catching up.
    Senator Burns. See, I think that has a lot to do with it 
and I can show you a lot of places where you allowed grazing, 
you have less fires.
    Mr. Rey. That's--there's no question about that, that 
grazing is part of----
    Senator Burns. And I think part--another thing is those are 
areas that could be accelerated for underbrush and removal of 
some fuels that are there.
    Mr. Rey. We do actually use grazing as a form of fuels 
treatment in several forests.
    Senator Burns. I got to tell you, the other day I saw--you 
know, this is a couple of years ago--a place over there that 
environmentalists are paying a sheep man to turn his sheep out 
to control a spot of nap weed. Isn't that wonderful, that they 
thought about that? Gosh, a miracle. How come we didn't think 
about that?
    Mr. Rey. We do do a lot of grazing for that reason.
    Senator Burns. We spent years of running grazing off of 
there and now they're paying the sheep men where the sheep men 
used to come over and pay you for grazing, you know. Gosh, 
wonderful thought.
    Mr. Rey. We're paying goat herders in the Southern 
California National Forest to run their goats in our field 
breaks to keep the vegetation down.
    Senator Burns. We can do that, we can do that. Those are 
the things, I just wondered if, on the amount of responsibility 
of these because we get into an interface home I think 
sometimes we spend money protecting things that could be 
protected by the homeowner themselves, that they have a certain 
responsibility of maintaining and taking preventative actions 
around their homes to prevent some of this. At least when 
there's a fire they can save the home.
    Mr. Rey. And that's the point and the purpose behind our 
Firewise program, to give homeowners enough information to know 
what they should do, what they can do, to make their own 
property more fireproof.
    Senator Burns. We're going to look at this airplane 
situation. I don't know enough about it right now to ask an 
intelligent question. But I just feel like we're headed down 
maybe a wrong road here but I can't comment on that right now.
    And Mr. Chairman, thank you. What's?
    Senator Thomas. I said you didn't--you just said you didn't 
know enough about it to ask a question. I said that's never 
stopped you before. And I was just kidding.
    [Laughter]
    Senator Thomas. Thank you, Senator.
    Senator Smith.
    Senator Burns. You know what? All team ropers are like 
that. And usually they're a thumb short, too.
    Senator Smith. Thank you, Mr. Chairman. I would like to 
include a more extended statement in the record.
    Senator Thomas. Yes sir, it will be in the record.
    Senator Smith. Mark, thank you for being here. And also, 
Ms. Scarlett, appreciate your service to our country and to our 
forests.
    As you probably know, I was a proponent of the Healthy 
Forest Initiative and have great hope in the promises that are 
contained in it about our ability to get ahead of these fires, 
and yet there are some projects that were being developed by 
local communities with Federal authorities and State 
authorities before the Healthy Forest Initiative was passed and 
signed by the President. One of those in my State is called the 
Metolius Project. Are you familiar with that Mark?
    Mr. Rey. Yes.
    Senator Smith. And can you give me an update on whether the 
lawsuit brought by extremist environmentalists is going to 
leave Camp Sherman vulnerable to another fire this year?
    Mr. Rey. If the suit is successful I believe that Camp 
Sherman will be more vulnerable than would otherwise have been 
the case. It's not clear yet what the disposition of the 
litigation will be. We're hopeful that we can prevail and 
resist a temporary restraining order, preliminary injunction.
    Senator Smith. I have sent a letter to Attorney General 
Ashcroft asking that he vigorously defend your agency in this 
suit because I don't think there's any accident in the fact 
that when President Bush announced he was going to go there 
last year the place went up in flames. I think that's very 
regrettable but clearly it's a beautiful and magnificent area 
and it ought to receive some scientific treatment and not just 
be the subject of environmental lip saw.
    Mr. Rey. I can't speak for the Department of Justice but I 
can tell you that we've been very pleased with the 
aggressiveness of their defense on these kinds of projects so 
far. In March the Federal District Courts handed down 15 
decisions and the Government prevailed in 15 out of 15 of them.
    Senator Smith. So you would be optimistic about the 
Metrolius Project being successful in its defense?
    Mr. Rey. I would be more optimistic if this weren't a Ninth 
Circuit case but I remain optimistic that we'll get a strong 
and vigorous defense.
    Senator Smith. And Mark, I understand you were in Oregon 
last week. Is that correct?
    Mr. Rey. I did pay a visit to Ashland last Friday.
    Senator Smith. How were you received?
    Mr. Rey. Well, it depends on----
    Senator Smith. I think I know, I read the papers.
    Mr. Rey. It depends on by whom.
    Senator Smith. Mark, I am, as you know, concerned about how 
we deal with the remnants of the Biscuit Fire and, as you know, 
we burned up a half-a-million acres of old growth timber there, 
and it's hard to calculate the damage to the environment and 
certainly the salvage effort that is ongoing now is small but 
important. And I have received reports that the area that is 
known as the Biscuit Fire is now being choked off by underbrush 
that is growing back, choking off the chance of the next 
generation of forest from growing out of the ashes there. I'm 
also mindful that recently some Federal land managers tried to 
go there but were obstructed because of the roadblocks that 
were built from some of the logs there. Did the Forest Service 
have anything to do with using those logs to obstruct the roads 
so that its foresters could not get in to see this area?
    Mr. Rey. No.
    Senator Smith. Do you know who did obstruct these areas?
    Mr. Rey. I don't know who did and my expectation is that 
it's probably somebody who's opposed to the Biscuit Fire 
recovery effort.
    Senator Smith. Isn't it a fact, though, that in that area 
where there had been fuels reduction work done that the fire 
had a diminimous impact, it did not burn with the intensity 
that it did in other areas because the slash had been cleared 
out, the undergrowth had been cleared out and it did not get 
into the crowns of the trees?
    Mr. Rey. Within the perimeter of the 500,000 acre fire 
there were both areas that had been treated where fire 
intensity was reduced significantly and there were also some 
areas that were previously burned in an earlier fire where the 
same net effect occurred and the fire burned less intensively.
    Senator Smith. And so the American public should know that 
where this treatment goes on, both the environment is improved, 
made more fire resistant, and there were actual economic values 
that were also derived from these thinning projects? Should the 
American public know that?
    Mr. Rey. I would hope so.
    Senator Smith. And isn't it a fact that these foresters 
were met by this obstruction that forest rangers did not build 
but others built and there were messages greeting them, ``No 
salvage here, stay the f out''? Is that what happened?
    Mr. Rey. I've heard that--basically that same rendition.
    Senator Smith. What are you going to do about that? I mean, 
obviously the foresters didn't get in there to see this, to 
evaluate it. How do you deal with that kind of stuff in the 
future? Do you just have to turn around and go back or is there 
a lawful way to proceed?
    Mr. Rey. Oh, there's a lawful way to proceed once we have a 
final decision, assuming that it's upheld by the courts and I 
think it's a pretty safe bet that it's going to be challenged 
in court. Assuming it's upheld by the courts then we'll 
undertake to execute the project as it's defined. And we expect 
that that will create some contention, that there will be 
subsequent demonstrations and we'll deal with them as needed 
when they occur.
    Senator Smith. When they were greeting you with the 
expletive, they said to stay out because this is our home. This 
is their words, their home. Do they live there? Are there 
people living there?
    Mr. Rey. Not in the forest per se, no.
    Senator Smith. So it's their home only in a symbolic way, I 
suppose, not in an actual way.
    Mr. Rey. In spirit.
    Senator Smith. In spirit. Well, I wish you well. Thank you, 
Mark, for going to Oregon. Thank you for caring. And I would 
only ask if you had a comment. You know, Senator Wyden was--my 
colleague, noting that there is--the money's not getting to the 
ground. You correctly also noted that there is more money being 
spent now to get to the ground than ever before by any 
administration in the history of the American nation. What's 
stopping the money from getting to the ground?
    Mr. Rey. We're still pulling impediments in our 
administrative processes out of the way. That's going to be a 
continuing effort as we seek to make ourselves more efficient 
and more effective in doing this kind of work. But I think the 
one strong impression I'd like to leave the committee with is 
that this is not something that's going to be solved overnight. 
Even when we worked together to write the Healthy Forest 
Restoration Act and you were good enough to pass it and the 
President signed it last December, it was with an understanding 
that this is going to be a multi-year effort that isn't going 
to be fixed overnight. We're going to move as fast and as 
furiously as we can but simply passing new legislation isn't 
going to stop all forest fires or all environmental lawsuits 
either.
    Senator Smith. Thank you, Mr. Chairman.
    Senator Thomas. Thank you, Senator.
    Well, thanks to both of you. I know you're both dedicated 
to what you're doing. I hope that, you know, the first 
responders are still the local folks and so on. We need to make 
sure we help that and the local involvement. As we close--2 
minutes each--what are your priorities? We've talked about this 
broad problem. What do you think are the most important things 
for us to address? Miss Scarlett?
    Ms. Scarlett. Well Senator, we have touched on a number of 
them today but I would say at Department of the Interior we 
have two fundamental priorities. One is to get those projects 
on the ground for those fuels treatments and in that regard, at 
Interior we have increased our projects over 50 percent just in 
three short years. In 2003 we got so much better at it that we 
actually were able to spend down our carryover balances. And 
we're getting a lot better at contracting and using contractors 
to get the job done. And we look forward to the Stewardship 
contracting, drawing value from those. So that would be our 
number one priority, to get those fuels reduction projects 
done, done efficiently, and to try and capture some economic 
value.
    The second is on the matter of our wildland fire management 
and suppression cost issue. Last year we did five fire 
suppression, large fire cost containment reports to try and 
better understand what's driving those costs. We now have with 
our Wildland Fire Leadership Council a high level panel that is 
further looking at that. We understand the issues and 
challenges with borrowing and as Mark said, that's not our 
preferred option.
    Senator Thomas. Good. Thank you. Mark? Two minutes. 
Priorities.
    Mr. Rey. At the end of January I met with all 120 and some 
of our forest supervisors, our line managers. And I left them 
with a single challenge. I told them that dealing with this 
issue, with the health of our forests and rangelands, and 
executing the program of treatment that's necessary to restore 
their health, will define their success as 100 years before 
their predecessors' success was defined through the formation 
of the National Forest System. So there's only one priority, 
and that's to get that work done as quickly as possible, as 
safely as possible.
    Senator Thomas. All right. Well, thank you very much, we 
appreciate what you're doing and we'll look forward to 
continuing to work with you.
    Mr. Rey. Thank you.
    Senator Thomas. The committee's adjourned.
    [Whereupon, at 11:32 a.m., the hearing was adjourned.]


                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

                        Department of the Interior,
           Office of Congressional and Legislative Affairs,
                                      Washington, DC, July 9, 2004.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: Enclosed are responses prepared by the Office of 
Wildland Fire Coordination to questions submitted following the May 11, 
2004, hearing on Fire Preparedness of the DOI and DOA Firefighting 
Agencies.
    Thank you for the opportunity to provide this material to the 
Committee.
            Sincerely,
                                             Jane M. Lyder,
                                               Legislative Counsel.
[Enclosure]

    Question. These aircraft are critical to fighting fires in Alaska. 
What will the BLM do to provide enough aerial support to combat fires 
in Alaska?
    Answer. For the 2004 fire season in Alaska, BLM has 68 
smokejumpers, seven helicopters, four jump ships, four air attack 
aircraft, three Type I crews, 44 Type II crews sponsored either by the 
Federal government or the State, as well as other miscellaneous 
specialists available for combating wildfire.
    To supplement these resources and to address the termination of the 
heavy airtankers contracts we have initiated the procurement process 
for 3 CL215's (large Canadian-built, certified fire fighting aircraft, 
up to 1200 gallon capacity), 3 SEAT (single engine airtanker, up to 800 
gallon capacity), and 2 type II helicopters (medium size, can carry up 
to 700 gallons). These aviation resources came to AK via the regular 
resource order system (dispatch system) and some through the 
supplemental strategy to mitigate the loss of the large airtankers.
    5 P3's have been returned to service. They are available for use 
anywhere in the country, depending on the National Multiagency 
Coordination Group's prioritization.
    Question. When I look at the Park Service's cost of fire fighting 
over the last decade and compare that to the other DOI agencies and to 
the Forest Service, the Park Service is always very high, why is that?
    Answer. The Department does not currently have historical 
firefighting cost data that would necessarily support the premise of 
the question. However, improved data to make certain comparisons will 
be available in the future. Beginning in FY 2004, the Department of the 
Interior and the U.S. Forest Service are implementing FireCode, a new 
financial management system in which the same fire incident codes will 
be used by all five firefighting agencies. This will enable us to more 
precisely report on the total funds spent to address a specific 
wildfire incident. By using common fire incident codes, FireCode will 
also enable us to determine the amount of funds spent by each agency on 
a particular type of land unit, as all of the fire agencies share fire 
resources across jurisdictions without reimbursement. For example, the 
Bureau of Land Management may respond to fires on national park lands, 
on FWS refuges, on Indian reservations, and on national forest lands. 
With the FireCode information, one could calculate the average cost to 
suppress a fire on each particular type of land unit, but it would not 
necessarily enable one to accurately compute each agency's firefighting 
costs on a per-acre basis. The unified approach to firefighting will 
likely continue to create some problems in making acreage cost 
comparisons for participating fire agencies.
    Question. We have been working very hard to include a reserve 
account in the Budget resolution to help cover the costs of emergency 
fire borrowing. I want to know what you believe reasonable criteria for 
fire suppression cost containment would be.
    Answer. Reasonable criteria for fire suppression cost containment 
would, in our view, need to consider the whole range of cost drivers 
and tools for responding to wildfires. Several underlying conditions 
set the stage for high fire activity and increased firefighting costs--
the accumulation of hazardous fuels, prolonged drought, and movement of 
people into the wildland urban interface. Nonetheless, some aspects of 
fire readiness and response can be controlled better. This year, for 
example, all incident command teams on large fires will have business 
advisors assigned to help ensure that firefighting forces will be 
supplied in a cost efficient manner. The incident command teams will 
also have strengthened contract oversight in 2004 as compared to 
previous years. Incident commanders have been directed to emphasize 
cost accountability when making fire response decisions. Incident 
suppression cost objectives will be included as a performance measure 
in Incident Management Team evaluations.
    In addition to the large fire cost reviews that were begun in 2003 
and will continue in 2004, the agencies are taking a much more 
comprehensive view of fire suppression costs. The Wildland Fire 
Leadership Council convened an independent senior-level panel of 
government managers to explore the strategic issues associated with 
large fire costs, including the relationship of fire to management and 
land and resource management plans. This panel has conducted a thorough 
literature review, interviewed many experts, and received presentations 
on a multitude of related issues. The panel's findings and 
recommendations will be presented to the Council this summer. We 
anticipate that the panel's findings will help identify the most 
significant factors driving the costs of wildland fire suppression and 
key opportunities for improving cost effectiveness.

               HEALTHY FORESTS RESTORATION IMPLEMENTATION

    1. Ms. Scarlett, we passed the Healthy Forests Restoration Act last 
November and the data we have from your agencies show that in FY 2004 
about half your HFRA projects will be prescribed burning about half 
mechanical removal of fuels.
    Question. Can you tell me how we will treat enough of the 
overstocked forests if we keep trying to use prescribed burning as the 
main means of treatment?
    Answer. We use several methods to remove hazardous fuels from our 
forests, often in combination. It is important to note that the 
treatment method is not the objective, but a means to reducing fire 
risk and restoring healthy forests. The projects are developed with an 
eye toward achieving treatment goals in the most cost effective manner 
regardless of treatment method. In forested areas, mechanical means 
often precede use of prescribed fire which is usually the most cost 
effective way to remove finer surface fuels.
    Our use of mechanical means continues to grow. We expect to apply 
mechanical treatments to about 90,000 more acres in 2004 than in 2001. 
Use of mechanical methods will continue to grow in importance over time 
as the private sector finds more uses for woody biomass and as the use 
of stewardship contracting helps make these treatments more cost 
effective.
    For specific projects, the choice of treatment methods depends on a 
variety of factors, including the cost of treatment, treatment goals, 
vegetation types, fuel conditions, topography, settlement patterns, 
habitat considerations, and climate. In national parks, for instance, 
the use of prescribed fire is often determined to be more in keeping 
with Congressional intent than mechanical means. Prescribed fire is 
more akin to natural processes than are mechanical treatments and, 
hence, closer to Congress' preservationist mandate for the National 
Park Service (NPS) Thus, the NPS depends heavily on prescribed fire. 
However, the NPS will use mechanical treatments when it is appropriate. 
For example, the NPS used the Healthy Forests Initiative categorical 
exclusion for mechanical treatment of 1,000 acres in Big Cypress 
National Preserve because the vegetation being removed was in an 
abandoned, overgrown agricultural field where fuel loads would have 
made prescribed fire too risky. By contrast, the Bureau of Land 
Management has used mechanical treatments on approximately 45% of its 
fuels treatment acres since FY 2001. The BLM's multiple use mission and 
the types of lands it manages often lend themselves to the use of 
mechanical treatments.
                                 ______
                                 
   Responses of the Forest Service to Questions From Senator Domenici

    In relation to the announcement that the large airtanker aircraft 
contracts have been terminated.
    Question 1. In each of the last five years, how much slurry was 
delivered (in gallons dropped) by the multi-engine slurry bombers, the 
single engine slurry bombers, the heavy lift helicopters, the light and 
medium helicopters, and Canadian water and slurry bombers?
    Answer. Annual retardant usage is accumulated as total number of 
gallons per air tanker base annually and not by type of aircraft. The 
average number of gallons of retardant dropped over the last five year 
period is 40 million gallons per year.
    Question 2. In each of the last five years, how much water was 
delivered (in gallons dropped) by the multi-engine slurry bombers, the 
single engine slurry bombers, the heavy lift helicopters, the light and 
medium helicopters, and Canadian water and slurry bombers?
    Answer. Data is not kept at the national level on the amount of 
water that is delivered to the numerous fires that occur on public 
lands. Reports can be pulled from AMIS (Aviation Management Information 
System) which could provide some information; however, the data would 
reflect only gallons dropped and in some cases helicopters are dropping 
a mixture of foam and water--not retardant. Please let us know if you 
would like these reports.
    Question 3. On average, what is the daily cost of each of the 
following aircraft types (assuming you have them under long-term 
contract): multi-engine heavy bomber, single engine bombers, military 
Reserve C-130's, heavy lift helicopter, light and medium lift 
helicopters, and Canadian water and slurry bombers?
    Answer.

------------------------------------------------------------------------
                                                               Average
                       Aircraft type                          daily cost
------------------------------------------------------------------------
Large Helicopters--Type 1 (EX).............................     $8,500
Large Helicopters--Type 1 (CWN)............................    $20,000
Medium Helicopter--Type 2 (EX).............................     $2,900
Medium Helicopter--Type 2 (CWN)............................     $5,470
Light Helicopter--Type 3 (All).............................     $1,000
Single Engine Air Tankers (EX).............................     $1,800
Single Engine Air Tankers (CWN)............................     $1,800
Helitankers................................................     $8,500
MAFFS......................................................    $10,000
Large Fixed Wing Airtankers................................    *$9,400
------------------------------------------------------------------------
* Based on avg. daily avail. of $4,000 with 2 hrs. flight time at
  $2,70Whr.
CWN--Call-When-Needed    EX--Exclusive Use

    Question 4. By aircraft or helicopter type, please provide the 
slurry capacity of each aircraft type that the agency has contracted in 
the last five years, or plans on contracting this year?
    Answer.

------------------------------------------------------------------------
                                    Maximum                  # currently
                                  suppressant    Type of        under
         Aircraft type              gallon      contract/     contract/
                                   capacity     agreement     agreement
------------------------------------------------------------------------
Lame Helicopters--Type 1.......     2,000             EX/CWN     112
Medium Helicopter--Type 2......       700             EX/CWN     288
Light Helicopter--Type 3.......      <300             EX/CWN     217
Single Engine Air Tankers......       800             EX/CWN      70
Helitankers....................     2,000              EX          7
MAFFS..........................     3,000             MOU          8
Large Fixed Wing Airtanker.....     2,550              EX          0
------------------------------------------------------------------------
CWN--Call-When-Needed    EX--Exclusive Use

    Question 5. Please provide us data that compare and contrast the 
speed and range capabilities of the multi-engine slurry bombers, the 
single engine slurry bombers, the heavy lift helicopters, the light and 
medium helicopters, and Canadian water and slurry bombers.
    Answer.

------------------------------------------------------------------------
          Aircraft type              Average speed           Range
------------------------------------------------------------------------
Large Airtankers (including       P2V=184 knots
 Canadian assets).                3=240 knots.......  500 Nautical Miles
Large Helicopters--Type 1.......  80-120 knots......  400 Nautical Miles
Medium Helicopter--Type 2.......  98 knots..........  250 Nautical Miles
Light Helicopter--Type 3........  110 knots.........  300 Nautical Miles
Single Engine Air Tankers.......  150-170 knots.....  500 Nautical Miles
MAFFS...........................  236 knots.........  1,500 Nautical
                                                       Miles
------------------------------------------------------------------------

    Question 6. In the hearing you suggested that military reserve 
aircraft should be considered safe because the military has records on 
each aircraft and they continue to receive manufacturer's support. You 
also indicated that the FAA does not certify these aircraft. Why should 
we believe that the FAA is any more comfortable with these military 
aircraft, than they are with the privately contracted multi-engine 
aircraft?
    Answer. The current military fleet has the history and baseline 
data on all of their aircraft. The commercial fleet does not have 
access to nor do they maintain this level of information on their 
aircraft. The FAA has no responsibility to oversee military aircraft 
operations. We cannot address concerns of the FAA.
    Question 7. Why are the P2Vs and P-3 Orion's, which still receive 
manufacture's support from Lockheed Martin, not certifiable? And why 
are the heavy lift helicopters of similar age certifiable?
    Answer. These aircraft were not designed and built for specifically 
dropping fire retardant. In addition, the history of these aircraft, as 
mentioned previously, are not available for review to enable 
certification. Helicopters were built to lift and release materials and 
operate within the design intent.
    Question 8. Please provide a map for the last two years that shows 
where the multi-engine slurry bombers were stationed during fire 
seasons. On that map indicate the working circle for each aircraft 
assuming a one hour transit time, and a two hour transit time from base 
to potential fires. If the aircraft were re-assigned during the year 
provide maps that show the new coverage areas as those planes were 
moved.
    Answer. Attached are the maps showing location of airtanker bases. 
This is the information we have available.
    Question 9. Please also provide us a map showing where the military 
reserve C-130's, heavy lift helicopters, and single engine slurry 
planes will be assigned this year, and what their one hour and two hour 
working circles are.
    Answer. A map of this nature is not available this year as the 
resources will be under national mobilization procedures and will not 
be based at any one location at any given time. As national assets, 
they will be moved as necessary to meet fire needs.
    Question 10. In both the Monday, May 10th briefing, and in the 
agencies' testimony on May 11th, it was stated that the primary mission 
for the multi-engine slurry bombers is initial attack and extended 
initial attack. Then you described using the heavy lift helicopters to 
perform this task and suggested that these helicopters could make six 
times the number of drops as the multi-engine planes. Isn't it true 
that in the past helicopters have not been used for initial attack, but 
have been utilized for crew support during extended initial attack and 
mop up?
    Answer. Helicopters are routinely used for initial and extended 
attack. We conducted initial attack on 1,960 fires last year with USDA 
Forest Service exclusive use contract helicopters.
    Question 11. Do any of the state fire fighting organizations 
utilize these multi-engine slurry bombers through state contracts, and 
what effect will this have on those state agencies that maintain their 
own aerial fire fighting assets?
    Answer. Several states do contract for medium and large airtankers. 
The following interim guidance has been issued for use of state 
contracted airtankers.

  <bullet> Federal lands not under State protection: Unauthorized 
        airtankers will not be utilized.
  <bullet> Federal lands under State protection: State may use State-
        contracted airtankers on federal lands, when the State has 
        formal protection responsibility so long as the State maintains 
        ``operational control.''

    Question 12. If a state contracts for multi-engine slurry bombers, 
will they be allowed to send them to assist on federal fires?
    Answer. See previous answer.
    Question 13. On page 9 of the NTSB letter to the Secretaries the 
NTSB said. ``Many of the aircraft used for public firefighting are also 
used for non-public (that is civil) flights, which are governed by FAA 
maintenance and airworthiness standards and are subject to FAA 
oversight. For example, some of the aircraft owned by Hawkins and 
Powers that are under contract to the Forest Service or Bureau of Land 
Management and are therefore considered public aircraft (for 
approximately 3 months of the year) are used for civil operations (and 
are therefore subject to FAA oversight) during the remaining 9 months 
of the year.'' They then go on to prescribe the conditions and 
inspections that must be followed to keep these aircraft available for 
both public use and civilian use. They clearly did not recommend the 
grounding of these aircraft. Please provide additional information to 
the Committee that describes why you have decided to ground these 
aircraft and why you determined that developing an inspection program 
would be too difficult.
    Answer. Aircraft that are certified by FAA for non-public (civil) 
use are under FAA oversight for that type of use. When these aircraft 
serve a dual purpose, the FAA certification only applies to the civil 
use. The public use of these aircraft for firefighting purposes as 
described in the NTSB report, are operating outside their design intent 
(i.e. were not designed for the stress of firefighting operations).
    The owner operator is responsible for determining the airworthiness 
of aircraft. The NTSB report recommended that the land management 
agencies develop a maintenance and inspection program to determine 
airworthiness and to be responsible for the program. The Forest Service 
and the Department of the Interior, do not have the in-house expertise 
or funding to take over these inspection and maintenance 
responsibilities. We are working with the FAA to clarify the criteria, 
information or methodology needed before we could take any actions to 
restore any or all of the large airtankers to service. We are also 
asking for their assistance on defining what type of organizational 
structure and staff requirements would be needed to develop the 
expertise to manage this unique and complex program.
    Question 14. In your testimony, in response to a question 
concerning the costs of adding additional heavy lift helicopters and 
single engine slurry bombers, you suggest it would cost an additional 
$26 to $46 million per year. What would it cost to put the inspection 
and oversight process in place to certify the 35 multi-engine bombers?
    Answer. As described in the previous question, the Forest Service 
and DOI previously relied on the owner/operator to determine the 
airworthiness of aircraft. The land management agencies do not have the 
in-house expertise or funding to take over these inspection and 
maintenance responsibilities.
    The Forest Service, the Bureau of Land Management worked with the 
FAA and the NTSB to evaluate options and methods for returning 
qualifying airtankers to service. To ensure the safety of these 
aircraft, the FS, BLM and FAA engineers established criteria and 
thresholds for decisions about returning aircraft to service.
    There are three main areas of concern, all directly related to 
airworthiness in the firefighting environment, that need to be 
addressed
          a. Current Condition of the Aircraft--related to inspections 
        to provide baseline data on the condition of the aircraft.
          b. Adequacy of the maintenance and inspection programs for 
        continued airworthiness in the firefighting environment--the 
        Phase 1 recommendations from Sandia National Laboratories were 
        only meant to be a starting point for developing maintenance 
        and inspection programs to prevent fatigue related structural 
        failures. The NTSB recommendations established higher standards 
        against which return to service decisions will be evaluated.
          c. Operational life limit of aircraft--establishing a valid 
        life limit and determining where each aircraft is in relation 
        to its life limit. Some airtanker structures may already have 
        exceeded this fatigue life limit from prolonged firefighting 
        operations.
    2. After the documentation is received on each aircraft, the Forest 
Service, BLM and FAA qualified Designated Engineering Representatives 
(DERs) will analyze the information to evaluate the airworthiness of 
the aircraft and make a recommendation as to its return to service.
    That recommendation will be reviewed by the FAA for concurrence, 
and then forwarded to the NTSB for an opinion as to whether the 
documentation and analysis meet the intent of the safety 
recommendations issued April 23, 2004.
    Question 15. Would it be possible to assign FAA and or military 
aircraft inspection personnel to this task until such time as the 
Forest Service and DOI agencies develop these capabilities?
    Answer. As we stated earlier, we are working with the FAA to 
clarify what criteria, information or methodology needed before we take 
any actions to restore any or all of the large airtankers to service. 
We are also asking for their assistance on defining what type of 
organizational structure and staff requirements would be needed to 
develop the expertise to manage this unique and complex program.
    Question 16. When you convert to heavy lift helicopters, why won't 
the FAA and NTSB require that you develop a similar inspection program 
for the time that the heavy lift helicopters are in public-use status?
    Answer. There is already a required FAA time-change inspection 
program for every helicopter that we contract. This program requires 
the replacement of rotor blades and critical components including the 
main rotor. Helicopters used for firefighting are operating within 
their design capabilities.
    Question 17. After the Blue Ribbon Report the Forest Service and 
the Sandia Lab examined the maintenance records of all 33 or 35 multi-
engine slurry aircraft and cleared them to continue flying last season. 
What specifically was found in those inspections that helped lead the 
agency to its decision to discontinue the use of these aircraft?
    Answer. Inspections were completed by the operators following 
criteria that was developed by Sandia Labs and funded by the Forest 
Service. The agencies discontinued the use of large airtankers not 
because the inspections were not carried out, but rather because the 
NTSB determined the inspections were not adequate to assure safe 
operations.

               Additional Questions from Senator Domenici

    Question 1. I need to better understand what the grounding of these 
fire bombers will mean to your efforts to fight fires this summer. 
Where will you find the heavy lift helicopters and single engine fire 
bombers to fill in?
    Answer. The result of the loss of the airtanker fleet is the rapid 
response of air assets that can fly fast and cover large amount of 
territory and have national mobilization capability. Large airtankers 
were primarily used for initial attack and extended initial attack. 
Without the large airtankers our strategy will include greater 
prioritization for protection of high-value resources and the reliance 
on other aviation assets to maintain our aerial resource capability. 
There will be a greater reliance on single engine air tankers (SEATS), 
large and medium helicopters, state aviation assets, as well as MAFFS 
for the remainder of the fire season. On the many thousands of initial 
attack fires, airtankers are not generally used. Airtankers are used on 
less than 20% of all wildland fires. Additional assets are already 
under contract or are being added to exclusive use contracts as needs 
warrant it.
    Question 2. How much more money will this cost, as compared to the 
cost of heavy bombers that you used to rely on?
    Answer. Our estimates based on the National Multiagency 
Coordinating Group (NMAC) Aerial Operations Strategy for this season is 
that $66.6 million (USDA Forest Service--$48.0 million and Department 
of Interior land management agencies--$18.6 million plus $8 million for 
MACFFS to be shared by the agencies based on usage.) in additional 
costs will be required to acquire further aerial assets to supplement 
the loss of large airtankers.
    Question 3. Do you expect to utilize more military C-130's this 
year? If the C-130's that the contractors provided are not safe why do 
we consider the military reserve aircraft that get called to the fires 
to be safe?
    Answer. We will be utilizing up to eight military C-130 E and H 
model aircraft equipped with the Modular Airborne Firefighting System 
(MAFFS) as needed. The Department of Defense is responsible for 
airworthiness inspections and maintenance of these aircraft. The C-130E 
and H models are newer, more modern aircraft compared to the C-130A 
aircraft that have been used by contractors.
    Question 4. Mr. Rey--last year you only burned 3.9 million acres 
and had only 63,000 fire starts (the lowest number since 1922) but your 
agency and the DOI agencies spent over $1.2 billion. What specific 
steps have you taken to control your fire suppression costs?
    Answer. The Administration shares your concern with the costs of 
wildfire suppression. With respect to planning for similar years, the 
Departments will continue to implement cost reduction actions stemming 
from two reports released in the Spring 2003 (Large Fire Cost Reduction 
Action Plan and the Fire and Aviation Management 2003 Operations Action 
Plan). Specific actions include:

  <bullet> The Departments have established wildland fire cost 
        oversight teams. We will continue to use large fire cost 
        containment oversight teams on those incidents that meet 
        certain size, cost, and duration criteria. The teams review the 
        decisionmaking processes of large incidents. In September 2003, 
        the teams released the Consolidation of 2003 National and 
        Regional Large Incident Strategic Assessment and Oversight 
        Review Key Findings. The report summarizes the key findings of 
        the teams and makes recommendations to improve suppression cost 
        containment and other wildfire management efforts. The 
        Departments will implement recommendations contained in the 
        2003 report and continue to conduct national cost containment 
        reviews on selected incidents.
  <bullet> The Departments are developing improved Decision Support 
        Systems. Managers are clarifying the definition of the least 
        cost suppression alternatives within decision support models 
        and establishing this alternative as the default option for 
        suppression activities for a given incident.
  <bullet> The Departments are developing improved Fire Management 
        Plans (FMPs). The improved FMPs will link updated geospatially-
        based fire management plans to the National Fire Plan 
        Operations & Reporting System (NFPORS) database. This link will 
        improve information manager's ability to predict more accurate 
        wildfire conditions that will serve as the basis for a 
        significant and measurable increase in the utilization of 
        Wildland Fire Use fires, as appropriate.
  <bullet> Following the findings of the Administration's Program 
        Assessment Rating Tool (PART) the agency has focused on 
        improved performance with cost containment studies.
  <bullet> The Departments are working with their partners to develop a 
        process through which rural fire department training, 
        experience, and qualifications can be recognized as equivalent 
        to National Wildfire Coordinating Group (NWCG) qualifications.
  <bullet> Additionally, the President's Budget provides Department 
        specific cost containment incentives, such as the Forest 
        Service's authority to allocate no less than 50 percent of 
        suppression funds to the field and providing for retention of 
        unobligated balances to perform vegetative treatments.
  <bullet> The President's Budget also includes cost containment 
        actions and performance measures, expands the use of risk 
        mitigation, updates fire management plans to increase wildland 
        fire use, and implements suppression cost savings incentives. 
        The Forest Service and DOI will also establish and use cost 
        containment performance measures as well as actions, together 
        with targets and milestones. These agencies will also review 
        state cost share agreements to ensure that the Federal 
        government is not paying a disproportionately high share of 
        suppression costs.
  <bullet> Finally, the President's Budget requires agencies to 
        stratify wildfire incidents by scope and extent to provide a 
        range of alternatives for each stratum on the basis of risk 
        assessment together with guidance to line officers concerning 
        the appropriate application of suppression resources for each 
        stratum based on optimal wildfire risk mitigation. In this 
        manner, appropriate resources will be allocated on the most 
        efficacious manner.

    The Departments of Agriculture and the Interior will continue to 
expand and enhance cost containment measures, such as those mentioned 
above. These improvements, however, only address the efficiency of fire 
suppression operations: not the fundamental cause of the extensive 
number and severity of wildfires over the last five years. We cannot 
contain wildfire suppression costs unless we address the cause of 
catastrophic large wildfires.
    The most important cost containment effort is full implementation 
of the President's Healthy Forests Initiative (HFI). Implementation of 
the administrative and legislation tools of the HFI; Healthy Forests 
Restoration Act, Stewardship Contracting authority, new NEPA procedures 
and ESA regulations, amended regulations to the Appeals Reform Act, and 
government and agency guidance; work in tandem to achieve more 
effective and efficient fuel reduction. Together they are designed to 
restore our forests to healthy, natural conditions and assist in 
executing the core components of the National Fire Plan.
    Question 5. How much money did you expend after October 1st on the 
California fires? Those costs will have to be paid out of this year's 
budget, isn't that correct?
    Answer. Yes, the funds expended for the Southern California fires 
came out of the FY2004 Suppression accounts. State and Federal agencies 
spent $157 million to control the fires in Southern California. Of the 
total, Forest Service funds amounted to $86 million in suppression 
funds and $11 million in Burned Area Rehabilitation Team (BAER) funds. 
A portion of these expenditures will be reimbursed by the State of 
California under agreements in place.
    Question 6. If we have another 7 million acre fire year, how much 
additional funding will be needed to cover the cost of the extra heavy 
lift helicopters and single-engine slurry bombers that you are telling 
us will be needed to fill in for the heavy bombers?
    Answer. Our estimate based on the National Multiagency Coordinating 
Group (NMAC) Aerial Operations Strategy for this season includes $66.6 
million in additional costs that will be required to acquire further 
aerial assets to supplement aerial firefighting capacity associated 
with the cancellation of large airtanker contracts.
    Question 7. Over 1.3 million acres of prescribed burning (over 75% 
in the southeastern United States) in FY2004 and only 227,000 acres of 
mechanical fuel removal. How do we make progress on the overall healthy 
forest problem using that strategy?
    Answer. We will continue to use the full range of options available 
to us to achieve our goal of restoring fire adapted ecosystems through 
the appropriate use of mechanical thinning, prescribed fire, wildland 
use fire and other programs. We have a highly effective and cost 
efficient program in the Southeast United States to maintain a 
vegetation regime that is fast growing and potentially a high fire 
hazard if it is not continually maintained. We currently spend $33 
million or 13% of the total hazardous fuels dollars available to us to 
accomplish 963,315 acres of hazardous fuels reduction in the SE. This 
is 60% of our total accomplished acres nationwide. We are targeting any 
increases in hazardous fuels funding towards hazardous fuel treatments 
in the Western states to achieve our goals. To achieve more acres 
treated with mechanical thinning, we will seek opportunities to treat 
acres through programs and projects such as stewardship contracting, 
biomass utilization and partnerships with other Federal agencies, 
tribes and local governments.
    As illustrated in the following chart for FY 2003, average per acre 
costs for prescribed burns compare favorably with other costs:

------------------------------------------------------------------------
                                                                Cost per
       Treatment/event type           Acres     Dollars spent     acre
------------------------------------------------------------------------
Mechanical Treatments.............    201,394      $82,435,100    $409
Prescribed Burns..................  1,250,836      $67,446,900     $54
Wildfire Suppression..............  1,287,907   $1,023,302,000    $795
Wildland Fire Use.................    290,963      $11,384,404     $39
------------------------------------------------------------------------

    Our efforts are moving to develop a method that quantifies, in a 
more systematic way, the relative contributions of proposed hazardous 
fuels projects toward reducing wildfire risks compared to the costs of 
each project. This process would analyze tradeoffs between investments 
for fuels treatments and fire preparedness to achieve the most 
effective fire management program at any budget level. For WUI 
projects, the focus will be on lives and infrastructure risks. For 
projects outside the WUI, the focus will be on prioritizing areas based 
on their ecological significance and relative risk.
Responses of the Forest Service to Questions From Senator Jeff Bingaman
    Question 1. How many National Forests currently have Wildland Fire 
Use plans in place and how many acres do they cover? Please provide the 
data for each National Forest by State.
    Answer. Forty-five forests have Fire Management Plans allowing 
wildland fire use. See the attached table for a listing of forests (by 
state) with Fire Management plans allowing wildland fire use. The Fire 
Management Plans do not list the number of acres available for Wildland 
Fire Use.
    Question 2. Will Wildland Fire Use be a required component of each 
National Forest's Fire Plan that will be updated by the end of the 
year? If not, what are the criteria that must be met to exclude 
Wildland Fire Use from a Fire Plan?
    Answer. Wildland Fire Use is not a required component of each 
National Forest Fire Management Plan. There are no criteria ``to 
exclude fire use'' from a National Forest Fire Management Plan. At this 
time, each National Forest must make an individual decision on whether 
or not to incorporate Wildland Fire Use as an option for an Appropriate 
Management Response to a natural ignition. The decision to include or 
exclude wildland fire use should be part of the scoping and alternative 
development process in Forest Land and Resource Management Planning.
    Question 3. What official Wildland Fire Use guidance and directives 
are available to Supervisors? Please provide copies.
    Answer. Guidance for implementation of wildland fire use exists in 
the following interagency guide: Wildland and Prescribed Fire 
Management Policy Implementation Procedures Reference Guide. Dave 
Bunnell and Tom Zimmerman. 1998. Forest Service Manual 5140 provides 
additional direction on planning and implementation of wildland fire 
use.
    Question 4. Is each unit required to keep uniform Wildland Fire Use 
statistics? If so, what statistics are kept, and are they compiled and 
published?
    Answer. The National Fire Plan Operation and Reporting System 
(NFPORS), tracks acres of wildland fire use accomplished. Those fires 
managed for resource benefit are included in the wildfire reporting 
system (Form FS 5100-29), where the lands burned are covered by a land 
use plan in which fire use has been integrated into the Forests Land 
Management Resource Plan. However, this system currently does not 
differentiate wildland fire use from all other wildfires. The Forest 
Service accounting system (FFIS) tracks expenditures for wildland fire 
use.
    Question 5. How many acres of National Forest land was wildland 
fire used for resource benefits during each of the last ten years?

                2003--290,963 acres
                2002--65,687 acres
                2001--60,672 acres
                2000--37,889 acres
                1999--33,891 acres
                1998--48,432 acres

    Question 6. What is the average cost per acre of mechanical fuel 
treatments, prescribed burns, emergency wildfire suppression, and 
Wildland Fire Use on National Forests?
    Answer. For FY03 average per acre costs were:

------------------------------------------------------------------------
                                                                Cost per
       Treatment/event type           Acres     Dollars spent     acre
------------------------------------------------------------------------
Mechanical Treatments.............    201,394      $82,435,100    $409
Prescribed Burns..................  1,250,836      $67,446,900     $54
Wildfire Suppression..............  1,287,907   $1,023,302,000    $795
Wildland Fire Use.................    290,963      $11,384,404     $39
------------------------------------------------------------------------

    Question 7. What mechanisms are in place to coordinate Wildland 
Fire Use policies, plans, and information collection among the Forest 
Service and Department of the Interior land management agencies?
    Answer. The Interagency Fuels Committee is working on aligning fire 
use policies among the Forest Service and Interior wildland management 
agencies. At this time only minor differences exist. These differences 
should be eliminated by 2005.
    Question 8. How many dollars has the Forest Service spent 
specifically on carrying out Wildland Fire Use projects for each of the 
last 5 years?

                FY03--$11,384,404
                FY02--$4,156,325
                FY01--$2,815,600
                FY00--$893,917
                FY99--$330,047

    Question 9. What is the Forest Service's plan to make up for the 
lost fire suppression capability resulting from the grounding of the 
large airtanker feet?
    Answer. The following table is the 2004 Interagency Plan to 
compensate for the 33 airtankers we terminated on May 10, 2004.
    The plan reflects additional aerial assets that will remain 
dedicated to the firefighting mission through the fire season. Other 
assets remain available that will be called upon, as the fire danger 
conditions warrant.
    This plan was developed with an objective to maintain an 
approximately-98% success rate on initial attack.

                            NUMBER (BY MONTH) AND ESTIMATED COST OF ADDITIONAL ASSETS
----------------------------------------------------------------------------------------------------------------
                                                                                                      Estimated
                          Asset type                            June    July    August    September      cost
----------------------------------------------------------------------------------------------------------------
SEATs........................................................    46      39       43         36       $8,992,800
T1 Helicopter................................................    18      26       21         20       32,256,000
T2 Helicopter................................................    33      45       33         24       12,384,000
T2 H-Seat offset.............................................  ......    12        3     ..........    2,790,000
CL-215.......................................................     2       2        2          2        2,200,000
Air Attack Group Supervisor..................................  ......  ......  ........  ..........    1,200,000
MUFFS........................................................   (*)     (*)      (*)        (*)        8,000,000
  Total Estimated Cost of Additional Assets..................  ......  ......  ........  ..........  $66,622,800
----------------------------------------------------------------------------------------------------------------
The total represents the amount needed for ALL agencies. The breakdown is:
$40,000,000 of the total will be funded by USDA Forest Service
$18,622,800 of the total will be funded by Department of Interior Bureaus
$8,000,000 for MUFFS, will be committed to by the USDA Forest Service; actual charges will be based on the use
  by agency.
* 8 MAFFS units are available to be deployed as needed


             COMPARATIVE DELIVERY CAPABILITY (AIR TANKERS VS. OTHER SUPPRESSANT DELIVERY RESOURCES)
----------------------------------------------------------------------------------------------------------------
                                                                              Change
                                                                   Average   from 2003  Efficiency   Capacity in
                          Resource type                           capacity     fire     multiplier   gallons per
                                                                              season                    hour
----------------------------------------------------------------------------------------------------------------
Contract Airtankers.............................................    2500      (33)          1           82500
MAFFS...........................................................    3000       <8>          1           24000
SEAT............................................................     650        16          1.5         15600
Helitanker......................................................    2000         5          6           60000
Large Helicopter................................................    1000        17          6          102000
Medium Helicopter...............................................     250        11          6           16500
----------------------------------------------------------------------------------------------------------------

  <bullet> The termination of the large airtanker contract produced a 
        lost capacity of approximately 82,500 gallons per hour. MAFFS 
        provided an additional 24,000 gallons per hour
  <bullet> With the implementation of the Airtanker Replacement 
        Strategy the gallons per hour (gph) capacity will be restored 
        by 194,100 for net gain of 111,600 gph.
  <bullet> The efficiency multiplier indicates the number of cycles to 
        the fire that can be expected by the resource.

               WILDLAND FIRE USE PLANS BY STATE AND FOREST
------------------------------------------------------------------------
                                                       Wildland fire use
              State                     Forest          plan  (yes/no)
------------------------------------------------------------------------
Alabama.........................  National Forests    No
                                   of Alabama.
Alaska..........................  Chugach...........  No
                                  Tongass...........  No
Arizona.........................  Apache-Sitgreaves.  Yes
                                  Coconino..........  No
                                  Coronado..........  Yes
                                  Kaibab............  Yes
                                  Prescott..........  No
                                  Tonto.............  Yes
Arkansas........................  Ouchita...........  No
                                  Ozark-St Francis..  No
California......................  Angeles...........  No
                                  Cleveland.........  No
                                  Eldorado..........  Yes
                                  Inyo..............  Yes
                                  Klamath...........  Yes
                                  Lake Tahoe Basin    No
                                   MU.
                                  Lassen............  Yes
                                  Los Padres........  No
                                  Mendocino.........  No
                                  Modoc.............  Yes
                                  Plumas............  No
                                  San Bernadi.......  No
                                  Sequoia...........  Yes
                                  Shasta-Trinity....  Yes
                                  Sierra............  Yes
                                  Six Rivers........  No
                                  Stanislaus........  Yes
                                  Tahoe.............  Yes
Colorado........................  Arapaho and         Yes
                                   Roosevelt, Pawnee
                                   NG.
                                  Grand Mesa,         No
                                   Uncomphagre,
                                   Gunnison.
                                  Pike & San Isabel   No
                                   NF.
                                  Rio Grande........  Yes
                                  San Juan..........  Yes
                                  White River.......  Yes
Delaware
Florida.........................  Florida National    Yes
                                   Forests.
Georgia.........................  Chattahoochee and   No
                                   Oconee.
Hawaii
Idaho...........................  Boise.............  Yes
                                  Caribou-Targhee...  Yes
                                  Clearwater........  Yes
                                  Idaho Panhandle...  No
                                  Nez Perce.........  Yes
                                  Payette...........  Yes
                                  Salmon-Challis....  Yes
                                  Sawtooth..........  Yes
Illinois........................  Midewin...........  No
                                  Shawnee...........  No
Indiana.........................  Hoosier...........  No
Iowa
Kansas..........................  Commanche NG......  No
Kentucky........................  Daniel Boone......  No
                                  Land Between the    No
                                   Lakes.
Louisiana.......................  Kisatchie.........  No
Maine...........................  White Mountain--    No
                                   see NH.
Maryland
Massachusetts
Mississippi.....................  National Forests    No
                                   in Mississippi.
Michigan........................  Hiawatha..........  No
                                  Huron-Manistee....  No
                                  Ottawa............  No
Minnesota.......................  Chippewa..........  No
                                  Superior..........  Yes
Missouri........................  Mark Twain........  No
Montana.........................  Beaverhead-         Yes
                                   Deerlodge.
                                  Bitterroot........  Yes
                                  Custer............  Yes
                                  Flathead..........  Yes
                                  Gallatin..........  Yes
                                  Helena............  Yes
                                  Kootenai..........  No
                                  Lewis and Clark...  Yes
                                  Lolo..............  Yes
Nebraska........................  Nebraska and Sam    No
                                   McKelvie NF.
                                  Buffalo Gap, Fort   No
                                   Pierre and Oglala
                                   NG.
Nevada..........................  Humboldt-Toiyabe..  No
New Hampshire...................  White Mountain....  No
New Jersey
New York........................  Green Mt and        No
                                   Finger Lakes--see
                                   VT.
New Mexico......................  Carson............  No
                                  Cibola............  No
                                  Gila..............  Yes
                                  Lincoln...........  No
                                  Santa Fe..........  No
North Carolina..................  National Forests    No
                                   in North Carolina.
North Dakota....................  Dakota Prairie      No
                                   Grasslands.
Ohio............................  Wayne.............  No
Oklahoma
Oregon..........................  Deschutes.........  No
                                  Fremont-Winema....  No
                                  Malheur...........  No
                                  Mt Hood...........  No
                                  Ochoco............  No
                                  Rogue River and     No
                                   Siskiyou.
                                  Siuslaw...........  No
                                  Umatilla..........  No
                                  Umpqua............  No
                                  Wallowa-Whitman...  Yes
                                  Willamette........  No
Pennsylvania....................  Allegheny.........  No
Puerto Rico.....................  Caribbean.........  No
Rhode Island
South Carolina..................  Francis Marion and  No
                                   Sumter.
South Dakota....................  Black Hills.......  No
Tennessee.......................  Cherokee..........  No
Texas...........................  National Forests    No
                                   in Texas.
Utah............................  Ashley............  Yes
                                  Dixie.............  Yes
                                  Fishlake..........  Yes
                                  Manti-La Sal......  Yes
                                  Uinta.............  Yes
                                  Wasatch-Cache.....  Yes
Vermont.........................  Green Mountain and  No
                                   Finger Lakes.
Virginia........................  George Washington   No
                                   and Jefferson.
Washington......................  Colville..........  No
                                  Gifford Pinchot...  No
                                  Mt Baker-           No
                                   Snoqualmie.
                                  Okanogan and        Yes
                                   Wenatchee.
                                  Olympic...........  No
West Virginia...................  Monongahela.......  No
Wisconsin.......................  Chequemegon-        No
                                   Nicolet.
Wyoming.........................  Bighorn...........  No
                                  Bridger-Teton.....  Yes
                                  Medicine Bow and    No
                                   Routt NF.
                                  Thunder Basin NG..  No
                                  Shoshone..........  No
------------------------------------------------------------------------

  Responses of the Forest Service to Questions From Senator Murkowski
    Question 1. With the recent announcement of the USDA Forest Service 
and the Department of the Interior to forgo the use of large fixed-
winged contracted airtankers for fire suppression for the remainder of 
the 2004 fire season, what is the Administration doing to alleviate any 
possible impacts to fire fighting capabilities in the State of Alaska? 
What is each agency's on-the-ground plan to help the State? I would 
like a specific plan of action by each federal agency.
    Answer. Specifically for the State of Alaska, the BLM has been 
authorized to order 2 CL-215s, one Single Engine Air Tanker (SEAT) and 
one medium helicopter to replace the capacity lost when the large 
airtankers became unavailable. States can continue to utilize on 
federal lands, the type of large airtankers that had been terminated on 
federal contracts, if the federal lands are under state suppression 
protection and as long as the state maintains operational control. We 
accept Canadian certification for the same ``purpose built aircraft'' 
we use such as the CL-215, 415 and AT-802s. What we are not accepting 
are the certifications of the same make/model of aircraft that were 
terminated under the federal large airtanker contract.
    Question 2. Please explain why the Department of the Interior and 
the USFS do not utilize a five-year average to determine fire 
suppression costs and needs for upcoming fiscal years?
    Answer. We have traditionally used the 10 year average to spread 
out fire suppression costs because they include more years of 
historical data that smooth out fluctuations in economic conditions 
from year to year. Truncating the data at a five-year point in time 
introduces bias into the calculation. This bias is particularly acute 
when the more limited five-year data represents on the one hand years 
with the highest cost suppression or on the other years with unusually 
low suppression costs. If we went to a five year average, the last few 
years have had high costs. But if we used the five-average following 
years of low costs, we would be significantly underfunding suppression. 
As a result, the five-year average produces wide ranges of variability 
that would actually support an appropriation request that either is 
much higher or much lower than what is needed.
    Question 3. Please explain why is there not a greater priority for 
funding in the FY 2005 budget regarding restoration & rehabilitation 
work, work that is critical to avoid exhorbatant costs of suppressing 
fires each year? The Rehabilitation and Restoration Program under the 
Wildland Fire Management Account is decreased for this Fiscal Year 
request.
    Answer. The President's Budget proposes $3.0 million dollars in FY 
05 for Rehabilitation and Restoration. Critical rehabilitation work not 
covered by the Fire Rehabilitation budget line item in the Wildland 
Fire Management appropriation will be addressed by utilizing regularly 
appropriated funds and carryover funds from prior years including any 
funds that were appropriated for repayment of funds transferred for 
fire suppression. The critical rehabilitation and restoration work will 
be funded from several of the various National Forest System budget 
line items, Capital Improvement and Maintenance budget line items, as 
well as, from the Permanent Appropriations and Trust Funds. The $3.9 
million decrease from the FY 2004 enacted level is modest when compared 
to the $445 million in rehabilitation work that the Forest Service has 
estimated will be funded through regularly appropriated funds.
    Responses of the Forest Service to Questions From Senator Akaka
    Another fire season is approaching and I am concerned about 
adequate funding to enable fuels reduction projects to be completed and 
fire fighters to do their job on the ground. I am also concerned about 
the costs of outsourcing studies, because in FY 2004 the Forest Service 
spent $72 million, according to analyses by the National Federation of 
Federal Employees; yet no funds were requested for outsourcing 
activities for FY 2005.
    (1) As standard operating procedure, the USFS reprograms funding 
from other accounts and projects to cover the perpetually underfunded 
fire fighting accounts. I would like to know how much of the costs for 
the competitive sourcing studies and implementation come from projects 
or funding to fight or prevent fires, or from Healthy Forest Initiative 
funding.
    If the answer is ``no funds will be transferred''
    (2) If NO FUNDS are to be reprogrammed from the aforementioned 
accounts, please provide information on which accounts and projects 
will have funds reprogrammed from them to reimburse the USFS for fire 
fighting activities, and an estimate of how much will be required from 
each account.
    Answer. As reported in the 2005 Budget Justification, the Forest 
Service estimates a cost of $16.3 million for Competitive Sourcing 
costs, not $72 million as quoted by National Federation of Federal 
Employees.
    Competitive sourcing studies and implementation are funded from a 
variety of sources depending on the work being studied. Work being 
studied that is defined as direct project work gets paid for out of the 
funds appropriated for that kind of project. Work being studied that is 
defined as indirect or administrative work gets charged to a pool of 
funds similar to Forest Service indirect costs. For example, Facility 
Maintenance studies were paid for out of Capital Improvement and 
Maintenance-Facilities funds. So far, fire fighting has not been 
studied and firefighting funds have not been used for any studies 
completed to date. The Investment Technology (IT) study, which is still 
underway, has been based on a formula which assigns costs to programs 
in proportion to direct permanent FTEs. As a result, fire preparedness 
funding, hazardous fuels funds and programs associated with Healthy 
Forests Initiative were used to pay for the IT study. Fire fighting 
funds are excluded from costs pools and from the IT study. The total 
cost for the IT study and the amount paid from various programs is not 
yet known.
    It is not possible to say with certainty whether funds will be 
transferred for Fire Fighting activities this year as it is dependent 
on the severity of the fire season and whether the appropriated funds 
will be sufficient for the needs. We have not yet identified areas from 
which fire suppression funds would be transferred from for this fiscal 
year.


</pre></body></html>
